             Depafiment of Health and Human Sewices

                    OFFICE OF
               INSPECTOR GENERAL




         THE LICENSURE OF OUT-OF-STATE
                         DENTISTS




                         AUGUST Igg3



——____ —._
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries seined by those programs. This
statutory mission is earned out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Semites, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Semites (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIGS Offke of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Participating in this project were the following people:

Boston                                              Headquarters
Barry McCoy, Lead Analyst                           Alan S. Levine
Ted Wall, Program Analyst

For additional copies of this repo~ please contact the Boston regional office at 617/565-1050.
    Department of Health and Human Setices

           OFFICE OF
      INSPECTOR GENEML




    THE LICENSURE OF OUT-OF-STATE
                  DENTISTS




           AUGUST Igg3
I                        OEI-01-92-~20
              EXECUTIVE                          SUMMARY


PURPOSE

To describe and assess State dental board policies for licensing dentists already
licensed in another State.

BACKGROUND

Dentists who have a license in one State and wish to obtain one in another face two
different paths to licensure. In one group of States, they can get a license through a
process called “licensure by credentials.” It allows for the granting of a license on the
basis of established credentials, with no further examination requirement. In the other
group of States, the out-of-State dentists must pass a clinical examination, regardless
of their experience and credentials. The examination is the same one given to those
seeking an initial dental license. It involves the use of a live patient and calls for the
applicant to find a willing patient with the necessary oral problems.

The chairman of the Subcommittee on Small Business Opportunities and Energy of
the House Committee on Small Business asked the Office of Inspector General to
conduct an inspection.    He was concerned that the failure of many States to provide
licensure by credentials might be detrimental to consumers and might impede access
to dental services for those living in underserved rural or inner-city areas.

This report responds to his request. It draws on a survey      of the dental boards for 50
States and the District of Columbia (hereafter referred to     as a State), a review of the
professional literature and existing data on State licensure   policies, and interviews with
representatives of State dental boards and national dental     organizations.

FINDINGS

Twenty-nine States grant Iicensure by credential    an increase of 11 since 1987.

  �
       The 29 States are concentrated    in the Northeast and Midwest.

  �	
       The core argument in favor of Iicensure by credentials is that it facilitates
       freedom of movement by practicing dentists.

Twenty-two States do not grant licensure by credentials.

  �	
       They are concentrated in the South and West and include six of the seven
       States leading the nation in population growth between 1980 and 1990.
  b
       The core argument in opposition to licensure by credentials is that it fails to
       offer adequate assurance of the competency of the out-of-State dentists seeking
       licensure.

The clinical examination which 22 States require of out-of-State dentists seeking
licensure provides a check on the continued competency of practicing dentists. But
these States do not apply the requirement or any similar assessment of competency to
dentists already practicing within their borders.

The examina tion requirement can impede efforts to recruit individual dentists willing
to locate in underserved areas within the States. Yet we found no da@ nor any
studi+ to support a contention that it has much overall bearing on access to dental
care in these areas.

CONCLUSION

Since 1987 dentists have come to enjoy somewhat greater freedom of movement as
more States have established licensure-by-credentials policies. Yet, within the
profession, controversy over the issue remains and may even have intensified.

Our inquiry has not provided a basis for supporting or opposing licensure by
credentials. It has, however, identified two closely related issues that are of
considerable significance to dentists and the general public. These are:

  �	
       the minimal degree to which States currently assess the continued competency
       of practicing dentists, and

  �	
       the questionable performance of many State dental boards in carrying out their
       enforcement and discipline responsibilities.

E State governments and dental organizations, such as the American Association of
Dental Examiners, the American Dental Association, the American Association of
Dental Schools, and the Association of State and Territorial Dental Directors, focus
constructively on these issues, support for licensure by credentials could broaden
considerably. More importantly, the public could receive increased protection for the
close to $40 billion a year it is spending on services provided by about 145,000 dentists
across the United States.

COMMENTS        ON THE DRAFT REPORT

We received comments on the draft report from the American Association of Dental
Examiners, the American Dental Association, the American Association of Dental
Schools, and The Association of State and Territorial Dental Directors. In appendix
C, we present each set of comments in full. In response to the comments, we have
made some technical corrections and some updates in our data on States’ practices
concerning licensure by credentials.


                                            ii


           --
                                    TABLE                    OF CONTENTS


                                                                                                                                PAGE
           =~                 s~y
           -mJcrT(IN....             .................                         . . . . . . . . . . . . . . . . . . . . . . . . . . .. I
           mince           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..4
            �    Current Practices      ..........
                                                     . . . . . . . . . . . . . . . . . . . . . ..O
                                                                                                      . . . . . . ..O . . . . 4
         . Rationales . . . . . . . . . . . .
                                               ................
                                                                               . . . ..O . . . . . . . . .OO
                                                                                                                  ....... 5
           Consequences
           �                 ..........
                                                 .................
                                                                                   . . . . . . . . . . . . . . . . . . . ..O
                                                                                                                              8
       ~NcLIJSION       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. II

      ~=NTsONTHED~~PORT                                                  ..........
                                                                                            . . . . . . .0 . . . . . . . . . . .
                                                                                                                                 12
      APPENDI~

      k	        State Dental Board Authorities and Practices in Granting Licensure
                by Credentials to Out-of-State Candidates: 1987 and 1993 . . . . . . . . . . . . . . A-1

     B: Credentialing Requirements Imposed by States that Grant Licensureby
          Credentials, 1993 . . . . . . . . . . . . . . . . . . . . . .
                                                                         . . . . . . ... . . . . . . . . . .
                                                                                                             . . . . B-1
     C Detailed Comments on the Draft Report . . . . . . . . . . . .
                                                                                        . . . . . . ... . . . . . . c-1
     D:-- Endnotes . . . . . . . . . .
                                       . . . . . . .. . . . . . . ...
                                                                      . . . . . . .. . . . . . . .. . . . . . . ..
                                                                                                                     D-I




——
    7
    {
                                  TABLE 1
    ‘1
    /, THE AMERICAN DENTAL ASSOCIATION AND LICENSURE BY CREDENTIALS:
                           AN HISTORICAL SKETCH
                                                   SIGNIFICANT ACTIONS
               heti~n Dental-Iation            (ADA) survey of mem&ship        indicates that 62 percent favor licensure

               by credentials.


               ADA House of Delegates     passesa resolution calling for Stat= to “consider including in their practice

               ~cts” proviSons for waiving the written and clinical Iicensure examination requirements for candidates

               who are licensed in another State.


               4DA House passes a resolution setting forth guidelines for licensure by credentials. The resolution

               lotes that the ADA “believes that an evaluation of a practicing dentist’s theoretical knowledge and

               :linical skill based upon his performance record can provide as much protection to the public as

               vould an evaluation based upon examination.”


               4DA survey of its membership show that 77 percent favor Iicensure by credentials.


                4DA House adopts a resolution calling for ADA “to appoint a committee to study the freedom of

               movement and Iicensure issues” and to report back to the Housein 1989. It also calls for ADA in

               cooperation with the American Association for Dental Examiners (HE)           to study “(1) the

               comparability of clinical examinations in use for dental licensure and (2) the feasibility of identifying

               reliable standards for evaluating clinical competency.”


               The committee to study freedom of movement and Iicensure issues sumeys States with and without

               [icensure by credential. Drawing on the committee re~rt, the ADA House passes resolutions

               extending the ADA’s Iicensure-by-credential guidelines for the States, calling for ADA and WE

               to study the development of mutually acceptable continuing com~tence criteria, and urging State

               boards of dentistry to grant mutual acceptance to State or regional clinical iicensure examinations

               found to be comparable.


               ADA/AM3E study produces “Guidelines for Developing Dental Limmure Clinical Examinations.”                It

               identifies the minimum common core for a clinical Iicensure examination.


               Congressman Bob Livingston (LA) introduces in the U.S. Houseof Reprewntatives H.R. 5444 to

               require State dental boards to grant licensure by credentials. No action taken on bill.


               Congressman William Jefferson (LA) introduces in the U.S. HOUWHR. 2691, a bill “to prohibit

               discrimination by the states on the basis of nonresidency in the licensing of dental health care

               professionals.” ADA House of Delegates narrowly votes down a resolution calling for the ADA to

               “actively support H.R. 269 1.“


               ADA/&%DE committee produces “Guidelines for Valid and Reliable Dental Licensure

               Examinations” in order “to further inform dental testing agencies concerning test procedures that will

               comply with professional testing standards.” The ADA and AADE convene a national conference to

               address the document. Examination committee chairs of 20 of the 22 regional and State testing

               agencies make up the primary audience.


               ADA convenes a national conference on licensure by credentials.       It draws together more than 230

               participants in an effort “to find common ground.”


               ADA House passes resolutions on Iicensure by credentials. Among them are ones calling for “all

               dental jurisdictions to follow the recommendations of the Joint ADA/WE           Guidelines for Valid

               and Refiable Dental Licensure Clinical Examinations,” offering further elaboration of ADA’s

               Guidelines for Licensure by Credentials, and urging State dental boards “to implement specialty

               licensure by credentials and/or specialty licensure examination as a top priority.”


               ADA House of Delegates, by a considerable margin, votes dow a resolution in support of H.R.

               2691. H.R. 2691 dies with the close of the 102nd U.S. Congress in 1992.

    1
        1993   Congressman Michael McNuky (NY) introduces H.R. 729, parallel to H.R. 2691 of 1991.



                                                            2


—
In 1992, Congressman Ron Wyden, Chairman, Subcommittee on Small Business
Opportunities and Energy, House Committee on Small Business, began his own
investigation of the matter. He was concerned that the reluctance of many States to
grant licensure by credentials might be detrimental to consumers and might be
countering efforts to improve access to dental services in undersexed rural or inner-
city areas. As a result, he asked the Office of Inspector General to conduct an
inspection on the nature and implications of State dental board policies in licensing
out-of-State dentists. This report responds to his request and follows up on a report
concerning State dental boards that we issued in 1988 (“State Licensure and Discipline
of Dentists,” OAI-01-88-00580). It describes the current situation concerning the
licensure of out-of-State dentists. It explains the primary rationales for and against
licensure by credentials. And it identifies some key factors relevant to an
understanding of the consequences associated with the practice of granting licensure
by credentials.

METHODOLOGY

In the report we drew on five major sources of information.    Each is identified briefly
below.

      A survey of all State dental boards. We conducted a mail survey of all State
      dental boards. We sought information concerning board resources and
      authorities and board actions involving licensure, enforcement, and discipline.

      The professional literature. We reviewed articles identified through a search of
      the National Library of Medicine’s on-line data base.

      Existing data and materials available from the ADA and the American
      Association of Dental Examiners (AADE). We reviewed existing data on State
      licensure policies, reports on existing policy positions of the organizations, task
      force reports, and other internal documents.

      Personal interviews. We interviewed representatives of national dental
      organizations, regional testing agencies and State boards, and individual
      dentists. Our attendance at the August 1992 ADA conference on licensure by
      credentials offered a good opportunity to conduct many such interviews.

      Focus group sessions. During the ADA and the AADE annual meetings in
      October 1992, we conducted locus group sessions addressing the rationales and
      consequences of licensure-by-credentials policies. One group was composed of
      representatives of States granting licensure by credentials; the other of
      representatives of States that do not.

We conducted our review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            3

                                         FINDINGS


CURRENT       PRACTICES

Twenty-nine States grant licensure by credentials, an increase of 11 since 1987.

   �
        The 29 States are concentrated            in the Northeast and Midwest.

   �	
        Twenty-two of them grant lkxmsure by credentials to applicants from all States;
        7 do so only for applicants fkom States with similar practices.

   �	
        States that provide licensure by credentials still impose various requirements on
        applicants. Most common are those calling for applicants to be in active
        practice, receive a favorable report from the dental board in their former State,
        and agree to a personal interview.

In 1909, in a book on the history of dental surgery, the author noted that eight States
had a system for granting licensure by credentials and that in time such practice “will
become general throughout the country.”3 Eighty-four years later, the practice has
increased but is still far from general. About half of the States will grant a dental
license on the basis of a licensed dentist’s credentials; about half will not (see
appendix A).

Since our review of dental Iicensure practices in 1987, the number of States that
exercise licensure-by-credentials authority (on either a complete or restricted basis)
has increased by one-half.4 The growth, however, has reinforced a long-existing
geographic concentration of such States. They remain heavily concentrated in the
middle and northeastern portions of the country (see figure 1).


                                      FIGURE 1: STATE DENTAL BOARDS AND
                                    UCENSURE BY CREDENTIAL AUGUST 1993



                      ..
                        tit­
                               �




                               “-
                                -


                                        Z? EXERCISE AumOlu&          3 HAVE AUTHOIWW SUT
                                        FULLY                        DO NOT EXERCISE K


                                        7 EXERCISE AUTHORllY         1S HAVE NO
                                        ON A UMITED SAW        -     AUTHORITY

                 Sculax krm?lGmchmiAswddxl    ml OtRad!nspoduQ,ns@




                                                        4

In the 29 States that offer licensure by credentials, out-of-State dentists seeking a
license do not automatically receive one. Their credentials are still subject to review.
This review varies widely among the States in terms of both the type and extent of
requirements (see appendix B). One State has a particularly exacting review process
that calls for applicant dentists to submit a sample of patient records for board review.
It reports denying licensure to 5 to 10 percent of its licensure-by-credentials applicants.

Twenty-two States do not grant licensure by credentials.

  �
        They are concentrated in the South and West and include six of the seven
        States leading the nation in population growth between 1980 and 1990.

  �	
        In 19 of these States, the dental board has no authority to provide licensure by
        credentials; in 3 it has the authority but does not exercise it.

The 22 States that do not grant Iicensure by credentials represented the major growth
areas of the country in the 1980’s. Collectively, their population grew by 19 percent
from 1980 to 1990 while that of the other 29 States grew by 5 percent. Included
among the 22 are 6 of the 7 States with the largest population increases during the
decade: California, Florida, Georgia, Arizona, Virginia, and North Carolina.

hong    the States that do not grant Iicensure by credentials, there are some signs of
change. Whereas in 1987 only one had the authority to engage in such practice (see
appendix A), by 1993 three had such authority. In others there is active inquiry into
the matter that could well result in some liberalizing changes.

Yet in these 22 States, the entry-level clinical examination remains as a major gateway
to licensure, even for dentists who have specialty practices and/or have many years of
experience. Eleven of these States devise and conduct their own examinations; the
other 11 typically rely upon 1 of the 4 regional dental testing services.5

RATIONALES

The core argument in favor of Iicensure by credentials is that it facilitates freedom of
movement by practicing dentists. Supporting arguments are that it:

   �	
        presents minimal risk because of the disciplinary action clearinghouses run by
        the National Practitioner Data Bank (NPDB) and AAD~ and

   �	
        rests on a base of positive experiences in States granting licensure by
        credentials.

To practicing dentists living in a highly mobile American society, licensure by
credentials makes good sense. It facilitates their freedom of movement from one
State to another. Whatever their motives for moving--be it to live in a better climate,
establish a more lucrative practice, accommodate a spouse who has an attractive


                                             5
employment opportunity, accept a teaching position at a university, or work in a clinic

in an underserved area--the availability of licensure by credentials makes it easier and

more possible for them to move than if they had to pass an entry-level examination in

general dentistry.


Dentists recognize that the examination requirement is not an impenetrable barrier to

licensure and that most applicants pass the examination.b Yet they raise concerns

about it. Most prominent among them is the cost and inconvenience associated with

taking the examination and finding patients who will be part of the examination.’

Another concern is the relevance of the examination for experienced dentists who are

specialists in fields such as periodontics or orthodontics. Still another is that the

examination requirement might have more to do with reducing competition to dentists

already practicing in highly desirable States than with assuring appropriate

qualifications of out-of-State dentists!


In response to those who argue that licensure-by-credentials States will be vulnerable

to “bad apples” who move from State to State, proponents point to the establishment

and operation of the national clearinghouses on disciplinary actions run by NPDB and

AADE. Between them the clearinghouses provide all State boards with access to the

names of dentists disciplined by other State boards, professional associations, or

hospitals.


For example, in a letter to Congressman John Dingell (MI), one dentist stressed the

significance of the NPDB and concluded: “There is no longer a need to restrict the

movement of all dental health care professionals because this national clearinghouse

of information detects the few who try to move around for unprofessional reasons.”9


To further their case, proponents also point to the experiences of those States that

have granted licensure by credentials for a number of years. If the practice were

harmful to the public, would these States continue to practice it, they ask. Before

1987, one State did rescind its licensure-by-credentials practice, largely because of

concerns about a few dentists who had been licensed by this route and who it later

found had been disciplined in another State. But it has since reestablished the

practice and reports no subsequent problems. Similarly, representatives from other

States that engage in the practice reported to us that they have had no bad

experiences and expressed confidence in their own credentials review process as a way

of weeding out problem cases.


Two States we contacted had actually reviewed the number of disciplinary actions they

had taken against dentists to whom they had granted Iicensure by credentials. One

State found that of 59 dentists issued a license in this way since 1974, only 1 was

subsequently disciplined. The other reported that of 171 dentists licensed by

credentials in the last 10 years, only 1 had a complaint lodged against him. This

represented less than one-half of 1 percent of all complaints lodged during this period.





                                            6

‘I’he core argument in opposition to lictmsure by credentials is that it fails to offer
adequate assurance of the competency of out-of-State dentists seeking licensure.
Supporting arguments are that:

  �	
       the NPDB and AADE clearinghouses have limited information and can not
       compensate for the inadequate enforcement efforts of some State dental
       boar(ky and

  �	
       the clinical licensure examination requirement is a vital safety valve, especially
       for States to which large numbers of dentists seek to move.

From the opponents’ camp comes the message that what licensure-by-credentials

advocates are seeking is “licensure by convenience,” without regard for a board’s

obligations to protect the residents of its State. In that context, they cite two

fundamental bases for their contention that licensure by credentials fails to provide

adequate protection.


One is that some of the out-of-State applicants may not be sufficiently competent,

This reservation rests largely on perceived variations in the quality of dental schools

and their graduates. Indeed, a committee formed by the ADA to study freedom of

movement and licensure issues reported in 1989 that these perceived variations were a

primary   reason why five States surveyed opposed licensure by credentials.l” The

reservation about out-of-State dentists, however, involves more than dental schools; it

also extends to dental boards and to their capacity and readiness to identify and then

respond to incompetent and/or unprofessional dentists. Dental board officials we met

with doubted the adequacy of the enforcement efforts of many State boards and even

the willingness of some boards to strengthen these efforts.ll


The other fundamental basis offered for opposing licensure by credentials is that, in

itself, it is not a credible basis for granting licensure. The argument is that the

credentials available for review, the lack of any disciplinary action, the receipt of a

supportive letter from a board or character witness, the conduct of a personal

interview, and the like simply fail to offer adequate assurance of the competency of a

dentist. A dental board owes the residents of its State greater assurance than such

factors provide.


In this context, the fact that the NPDB and AADE clearinghouses offer a source of

information about disciplined dentists presents little assurance. The latter, they point

out, does not receive reports from a number of States and the former does not include

any disciplinary actions taken prior to October 1990. Even more significant, they add,

is that both of these clearinghouses identify only those individuals who have had

formal action taken against them. That a dentist’s name does not appear in either

clearinghouse is no assurance that he or she is competent; nor does it preclude the

possibility that the dentist is under investigation.





                                              7

Thus, the opponents of licensure by credentials hold to the argument that a clinical
examination provides a minimum necessary check to impose on any dentist wishing to
practice in a State. Many of them will grant that the examination itself is not a sure
measure of competence and that better mechanisms can probably be developed. Yet,
even as it is, they assert it provides better protection than that offered through
Iicensure-by-credentials reviews. For example, one dental board member told of a
dental school dean who on paper had excellent credentials and would have easily
passed a Iicensure-by-credentials review, but failed the board’s clinical examination
three times.

Further, representatives from States facing a major influx of out-of-State applicants for
licensure say that they have a particularly compelling need to go beyond a case-by-
case review of a candidate’s qualifications and rely upon a standardized examination to
help them assess a candidate’s capacity to practice dentistry. For dental board officials
from California, which had 1,294 dental licensure applicants in 1991 or from Florida,
which had 631, the positive experiences of Iowa (70 applicants), Minnesota (93), or
other States which have much smaller number of applicants (and can more readily
give each candidate individual attention) seem of little relevance.12 It is not, they
note, a matter of keeping out the competition, but giving their residents the assurance
that licensed dentists are sufficiently competent to practice.13

CONSEQUENCES

It is reasonable to ask what if any notable consequences are associated with the
practice of granting licensure by credentials. We addressed that question as part of
the rationale offered by those favoring licensure by credentials. They cite the results
as positive, with no particular dangers presented to their States’ residents.

We gave more attention, however, to any consequences associated with the practice of
not granting licensure by credentials--that is, of requiring all out-of-State applicants to
take a clinical examination. We did that because the controversy concerning licensure
by credentials has focused on the possibly negative effects caused by the 22 States
falling in the latter category. Our inquiry in this regard was not a comprehensive
assessment of the many possible consequences. At a general level, however, it
surfaced two central findings that are pertinent to further discussions of the pros and
cons of licensure by credentials.

The clinical examin ation which 22 States require of out-of-State dentists seeking
licensure provides a check on the continued competency of practicing dentists. But
these States do not apply the requirement or any similar assessment of competency to
dentists already practicing within their borders.

Dentistry is often referred to as one of the last “cottage industries.”14 The relevance
of this analogy is indicated by the fact that 69 percent of dentists practice alone and
that 89 percent practice alone or with 1 other dentist.]s Thus, dentists tend to have



                                             8

relatively little day-to-day contact with colleagues, other health care professionals, or

with hospitals.lb


Dentists also tend to have little if any exposure to quality assurance reviews once they

receive their initial dental license.1’ Few, for instance, are exposed to the kind of

ongoing oversight which hospitals and the Medicare-funded Peer Review

Organizations conduct on the hospital-based medical practice of physicians.18

Among the 51 States, 30 require some continuing education courses as a condition of

dental Iicensure, but none calls for any assessment of what a dentist actually learned

from a course.lg


Thus, the clinical examination that 22 States require of out-of-State dentists seeking

licensure represents the most significant quality assurance check that licensed dentists

are likely to face in their entire career. Whatever the examination’s limitations as a

competency assessment tool, it affords some basis for determining a dentist’s current

clinical knowledge and skill.zo


Notwithstanding the quality assurance benefits associated with the clinical examination

requirement, the fact remains that the 22 States imposing it on licensed out-of-State

dentists seeking licensure apply it selectively. They require these out-of-State

applicants to take it regardless of their credentials or the nature of their practice, but

they impose no similar requirement on the much larger number of dentists already

practicing in their own States. As in all other States, licensed dentists practicing in

these States are not subject to any ongoing State-imposed assessment of their

competency. In 11 of the 22 States that do not grant licensure by credentials, dentists

do not even have the minimal State-imposed obligation of attending continuing

education courses.21


Some representatives of these States defend this inequity on the grounds that their

own licensees have already passed the clinical examination they require out-of-State

applicants to take. Yet, when questioned, they acknowledge that could have been as

many as 30 to 40 years ago and offers insufficient basis for assuming current

competency.


Thus, however much a clinical examination may help ensure a certain minimum level

of competency, the selective manner in which these States use it makes them

vulnerable to the charge that it is intended to reduce competition more than to protect

patients. One educator who has studied this issue described this situation as imposing

a “secondary burden” on out-of-State “competitors” that does not exist for in-State

“commercial interests”. He adds:


       “State licensing bodies would be hard pressed to maintain that they are

       ensuring the safety and health of in-state residents and not establishing a

       barrier to commercial interests when in-state practitioners may maintain

       Iicensure for a lifetime without some system of retesting and/or

       continuing education.”22



                                             9
    The examination which 22 States require of out-of-State dentists seeking licensure can
    impede efforts to recruit individual dentists willing to locate in underserved areas
    within the States. Yet we found no da@ nor any studies, to support a ccmtention that
    it has much overall bearing on access to dental care in these areas.

    Another concern associated with the clinical examination requirement for out-of-State
    dentists is that it might serve to hinder efforts to improve access to dental services in
    underserved areas. There are data that lend some support to this concern. Among
    the 22 States, 16 have dentist-to-population ratios below the national average of 57.5
    per 100,000 population. Further, while the 22 States account for 36 percent of the
    licensed dentists in the United States, they account for 54 percent of the 771 dental
    shortage areas and 55 percent of the 423 shortage areas with 20 percent or more of
    the population below the poverty level.n

    A State requirement that licensed out-of-State dentists take and pass a clinical
    examination as a condition of licensure clearly does not facilitate the movement of
    such dentists to shortage areas in these States, nor does it encourage the retention of
    National Health Services Corps dentists who work in undersexed areas in these States
    and do not have a State license. Indeed, we have been informed of individual cases of
    these kinds.

    Yet we found no data, nor any studies, to indicate that licensure-by-credentials policies
    have much overall bearing on the access to dental semices in underserved areas. If
    dentists enjoyed complete freedom of movement, it is not at all clear that many more
    would work in undersexed areas than is now the case. Representatives from most of
    the States we covered in our focus groups--whether or not they grant Iicensure by
    credentials--reported significant difficulties in having dentists work in underserved
    areas, even in those underserved areas where they have the opportunity to make a
    substantial income.




                                                10



—
                            CONCLUSION


Since 1987 dentists have come to enjoy somewhat easier freedom of movement across
the United States as more States have established Iicensure-by-credentials policies.
Yet within the profession, the controversy has continued and perhaps even intensified.
The core of that controversy focuses on the restrictive practices of a few large sunbelt
States and perhaps three to five others to which significant numbers of dentists might
wish to move.

The ongoing operation of the NPDB and AADE clearinghouses, the slow but clear
movement toward a standardized clinical licensure examination acceptable to all
States,U and the continuing pressure exerted by many dentists could lead to wider
adoption of licensure by credentials in the years ahead. Such direction would
obviously contribute to the interstate mobility of dentists; its consequence for the
public at large is less clear.

Our inquiry has not provided a basis for supporting one side or the other in the
controversy concerning licensure by credentials. In examining the arguments for and
against it, however, we have identified two closely related issues that are of major
significance to dentists and the general public. These are:

  �	
       the minimal degree to which States currently assess the continued competency
       of practicing dentists, and

  �	
       the questionable performance of many State dental boards in carrying out their
       enforcement and discipline responsibilities.

If State governments and dental organizations, such as the American Association of
Dental Examiners, the American D>ntal Association, the American Association of
Dental Schools, and The Association of State and Territorial Dental Directors, focus
constructively on these issues, the support for licensure by credentials could broaden
considerably. More importantly, the public could receive increased protection for the
close to $40 billion a year 25I“t is spending on services provided by about 145,000
dentists across the United States.2G




                                           11

COMMENTS                      ON THE              DRAFT             REPORT


We received comments on the draft report from the American Association of Dental
Examiners (AADE), the American Dental Association (ADA), the American
Association of Dental Schools (AADS), and The Association of State and Territorial
Dental Directors (ASTDD). In appendix C, we present each set of comments in full.

The AADE agrees with our concluding observations about the minimal attention given
to continued competency and the questionable performance of boards’ in carrying out
their enforcement responsibilities. It asked for any additional information we could
provide on continued competency to facilitate its own efforts in that area. We have
followed up with AADE to provide such information.

The ADA provided some updated information on licensure by credentials policies of
the States and indicated it would alter some of our observations on which States
engage in the practice. It agreed with our conclusion about continued competency,
but suggested we report the importance of continuing education as a mechanism to
address such competency. Finally, it reviewed its position and actions concerning
licensure by credentials.

On the basis of ADA’s information and follow up conversations with representatives
from Texas and Arkansas, we have added them to the group of States that is now fully
exercising the authority. But, as figure 1 indicates, it remains that this group is
concentrated in the middle and northeastern portions of the country and still does not
include 6 of the 7 States with the largest population increases during the 1980’s
(California, Florida, Georgia, Arizona, Virginia, and North Carolina).

In regard to continuing education (CE), we agree, as ADA suggests, that mandated
CE is important to consider among the array of approaches that are relevant to
continued competency. Yet, we also point out that, its overall value in this regard
remains questionable. 27 In a proposal seeking funding for computer-based patient
simulations, the major national dental organizations, including ADA note: “It is
widely agreed that a major weakness in mandatory continuing education requirements
is that frequently there is little relationship between the continuing education activity
and the professional development needs of the individual.”% The ASTDD, in its
comments on this report, reinforces this point by noting: “Many practitioners take
courses they like, rather than courses they need. Assessment of what a dentist actually
learned from a course (e.g. knowledge), does not necessarily translate into changes in
practice or attitude.”

The AADS offered some technical suggestions, cited two recent articles in the Journal
of the Amen”can Dental Association (JADA) that were relevant to our discussion, and
urged that we more fully address antitrust issues, We made corrections that addressed
their technical suggestions, referenced one of the articles at an appropriate point in



                                           12

our text, and did not address the antitrust implications - mainly because they would
call for judgments by the Federal Trade Commission.

The ASTDD’S president urged that State public health dental programs be more
closely tied in with State licensing and credentialing efforts, emphasized its concern
about insufficient access to oral health services, expressed its support for periodic
assessment of the competency of dentists, and suggested that it is time to move toward
a national clinical licensure examination for dentists. He did not call for any changes
in our draft report.




                                           13

                  APPENDIX                       A


   !SI’ATE
         DENTAL BOARD AUTHORITIES
                                ANDPRACI’K33IN GRANTING
LICENSUREBYCREDENTIALS TO OUT@F-STATE
                                    CANDIDA= 1987AND1993

        BOARD ~         AUTHORITY TO GRANT LICENSURE
                          BY CREDENTIALS
                                                              BOARD HAS
                                                                  ~
              BOARD
                  EXERCISES*
                          ITS             BOARD
                                              HASNOT          AUTHORITY
                  AUTHORITY               EXERCISED ITS        TO GRANT
                                           AUTHORITY          LICENSURE
                                                                  BY
          BOARD       BOARD                                  CREDENTIALS
        AUTl+ORITY AUTHORITY
        EXTENDS TO  LIMITED
                          TO

        CANDIDATES CANDIDATES

         FROMALL   FROM STATES

          STATES   WITHSIMILAR

                    PRACTICES

STATE   1987     1993      1987   1993
   1987        1993    1987   1993

AL
                                                            x       x
AK                 x
                                          x
Az
                                                            x       x
AR                x
                                           x
CA
                                                            x       x
co
                                                            x       x
CT                 x
                                          x
DE
                                                            x       x
DC                           x      x

FL
                                                            x       x
GA
                                                    x       x
HI
                                                            x       x
ID
                                                            x       x
IL                 x
                                          x
IN        x        x

IA        x                         x

Ks       x         x

KY                                  x
                          x
IA                 x
                                           x
ME       x         x





                                  A-1

   ~ATE DENTALBOARDAUTHOIUTIES
                             ANDPRACIKESIN GRANTING
IKENSUREBYCREDENTIALS
                    ~ OUT~F~ATE Cu4NDB3AT’Ek1987AND1993

        BOARD ~        AUTHORITY TO GRANT LICENSURE
                         BY CREDENTIALS
                                                                 BOARD HAS
                                                                     ~
             BOARD
                 EXERCISES”
                         ITS             BOARD
                                             HASNOT              AUTHORITY
                AUTHORITY                EXERCISED ITS            TO GRANT
                                          AUTHORITY              LICENSURE
                                                                     BY
          BOARD       BOARD                                     CREDENTIALS
        AUTHORITY AUTHORITY
        EXTENDS
              TO          TO
                    LIMITED
        CANDIDATES CANDIDATES
         FROMALL   FROMSTATES
          STATES  WITHSIMILAR
                    PRACTICES

STATE   1987    1993      1987   1993
   1987        1993   1    1987    !   1993


MD       x        x

MA       x        x

MI                x        x

MN       x        x

                                                ,
MS
                                                               x            x

MO       x        x

MT
                                                               x            x

NE       x        x

Nv
                                                               x            x

NH       x        x

NJ                                 x
                             x

NM
                                                               x            x

NY       x        x

NC
                                                               X1X

ND                x
                       x

OH                x
                            I                  xl

OK                         x       x

OR
                                                               x            x

PA                         x       x

RI                          x
                                                 x

                                                I

Sc
                                                   x            x

SD                x
                                               x

TN                          x
                                                 x




                                 A-2

   ~ATE DENTALBOARDAUTHORITIESANDPRACIXESIN GRANTING
LICENSUREBYCREDENTIALTO OUT~F-SI’ATECANDIDA~: 1987AND1993

                 BOARD ~              AUTHORITY TO GRANT LICENSURE
                                        BY CREDENTIALS
             I                                                                             BOARD HAS
                                                                                               ~
                       BOARD
                           EXERCISES*
                                   ITS                                 BOARD
                                                                           HASNOT          AUTHORITY
                          AUTHORITY                                            ITS
                                                                       EXERCISED            TO GRANT
                                                                        AUTHORITY          LICENSURE
             I
                                                                                               BY
                   BOARD       BOARD                                                      CREDENTIALS
                 AUTHORITY AUTHORITY
                 EXTENDS
                       TO    LIMITED
                                   TO
                 CANDIDATES CANDIDATES
                  FROMALL   FROMSTATES
                   STATES   WITHSIMIL/iR
                          I PFLKTICES
STATE            1987        1993        1987          1993            1987        1993         1987   I    1993

m
                            x
UT


VT
                                       x                                                            lx
VA
                                                                           lx                  x    I
WA
                               x                                                               x    I


w
                                                                                                X1X
                                                                                                       1

WI
                               x
WY
                                                     x                     I           +--
TOTALS
           11
                                                                ....
                                                ........... .......




Sourctx American Dental Association ADA News, Juiy 8, 1987 and October 5, 1992 Updated throu&
August 1993 by Ofice of Inspector General telephone contacts with ADA and Stare boards.

� We sou@   dam porn the individual Stoles on how ojkn they acmal(y ererctied their licensure-Qy-credemials
atuhor@ in Fiscal Year 1991. However, most of the States were unable to provide us with the akta.




                                                    A-3

                         APPENDIX                         B


CREDENTIAUNG        REQUREMmnS    IMPOSED BY STATES THAT GRANT
                    LICENSURE BY CRED ENTIALs, 1993

                                                             NUMBER OF
                       REQUIREMENT                             STATES
                                                             REOUIRING

        Active practice within former State immediately             24
        preceding application

        Board in former State must attest that the                  20
        subject was in legal and reputable practice (no
        unresolved complaint, review procedure, or
        disciplinary proceeding, and license has not
        been revoked)

        Must be personally interviewed                               14

        Affidavits or letters from practicing dentists               8
        regarding moral character

        Good moral character                                         6

        Physician’s statement of physical and mental                 3
        health

        Intends to establish mactice                                 2

     Source: American Dental Association, Repro of the Division   of Education:
     Dental Licensure, April 1992.




                                            B-1

                           APPENDIX                 C


              DETAILED     COMMENTS      ON THE DRAFT REPORT

In this appendix, we present the complete comments on the draft report received from
the American Association of Dental Examiners (AADE), the American Dental
Association (ADA), the American Association of Dental Schools (AADS), and The
Association of State and Territorial Dental Directors (ASTDD).




                                        c-1
                                 AMERICAN ASSOCIATION OF DENTAL EXAMINERS
                                  Chicago Ave., Suite 644, Chicago, IL 60611 (312) 440-7464
                                                                             May 13,    1993



                                      Mr. Bryan B. Mitchell

       B.  Wayne J. h                 Principal  Deputy    Inspector    General

   2928HmniiIm~                       Off ice of Inspector     General

     sjouxc~,    IA 51104
           (712) 2ss-7607
                                      Department   of Health & Human Services

                                      Washington, DC 20201


                                      Dear Mr. Mitchell:
            Dr. Jd   F. GJuvcr
            w-w
            Rmo. NvS9509              Thank you for giving the American Association of

             (’702)S2S-2417           Dental Examiners an opportunity to comment on the

                                      draft report “The Licensure of Out-Of-State

  FIRsTwm+mmmr                        Dentists”.

     Dr.   KBadam
       Iiliiml
                       The report concludes that “Our inquiry has not

        3oEaaaktlsuca
      New Yak NYloo22                 provided a basis for supporting or opposing

             (~12)7554125             licensure by credentials.  It has, however,

                                      identified two closely related issues that are of

 SECOND    vm3-mEsmNr                 considerable significance to dentists and the

           Dr. Km    c
                     C-ICY
                                      general public.  These are:

                440 BrtYdsL
       cohdliLMs         39429               �	     the minimal degree to which States
                (@Ii)
                   73&1761                          currently assess the continued
                                                    competency of practicing dentists, and
  lnmDvmwsmmw
      t&.
        Hany

           RDoIwuI                           �      the questionable performance of many
      2860 PiakunKAvc=Ic                            State dental boards in carrying out

            Lhlhuh.
                 MN55811                            their enforcement and discipline

             (218)7224823                           responsibilities .“

MMmnATE     Pm HmlKmrr
                                       As regards the “questionable performance of manY
        l)r. wT.    RwiI               State dental boards” it 1S clear    that    the lack of
       475 Mallard AvaxIc              sufficient funding is the principle      reason  for
  Abmul?    s@ga.    FL 32701
                                       enforcement difficulties.
                (407)831-1747
    FxEamvEDIREcNx
                    In addition   the report   states     “If State
                                       governments and dental organizations, such as the
          MLMdty Nder                  American Association     of Dental     Examiners,     the
      2111LChiCJg0
                AVCaUIC                American Dental Association, the American
            ChiagO,
                  %?il%                Association of Dental Schools, and the Association
             (312)440-7464             of State and Territorial       Dental   Directors,     focus
                                       constructively on these      issues,    support    for
                                       licensure   by credentials could broaden
                                       considerably .“ This is likely to follow closely

             Dr. Kuhka    Kth’
            u E Mifflia StruI          on the heels of continuing competency programs.

                     Suiac
                         204
            ~        WI53703           The AADE agrees that continued competency should
                (60s)2xw45KJ           be addressed.  AADE established a Continuing
                                       Competency Committee in 1992, the goal  of which is
to develop criteria and mechanisms for states to

use in assessing    the continued  coxnpetency of their
licensed  dentists.     The AADE is currently seeking
support for the Committee’s activities from the
Bureau of Health Professions of the Department of
Health and Human Services, the American Dental
Association, the Academy of General Dentistry, and
the American Association of Dental Schools.

The AADE would like to officially request that, if
possible, any information obtained during the
Office of Inspector General’s study on the subject
of continued competency be shared with the AADE
Continuing Competency Committee.              Also, the AADE
Continuing Competency Committee would appreciate
any information    that     the IG’s office      has with
respect   to other   health    organizations’       activities
in ~he area of continued competency.

                               Sincerely,




                               Molly Nadler

                               Executive Director



cc	 :   Members, AADE Executive Council
        Members, AADE Continuing Competency Committee
        .
Mr. Mitchell
May 2a, 1993
Page 2


view that    licensure            by credential        states    do not         include      any
of the retirement              areas   in the      sunbelt    region.

Continued       Com~etencv
                        v



We agree     with your assessment              that     it is important,      for State

governments       and dental        organizations,           such as the American

Dental    *_s_gciation,,       the American         Association       of Dental

Scho.ols” and o~,:to                focus     constrictively         on the issue    of

continued      competency”of          @racticing        dentists.      At present,     the

American     Association         of Dental       Examiners        has an ongoing   task’

force    to study      this    issue,     with participation            by the American

Dental, Association,           the American         Association       of Dental

Schools     and :ther       dental     organizations.


We note on this              issue     that    you may wish to mention                in the

report      the importance             of continuing         education       as one

mechanism        to address         clinical        competency.         We believe

continuing          education        is a very       important       aspect      of this

issue.        The American          Dental      Association,         through      exlSt~n9

policy,       urges      states     to develop        mechanisms        to foster

continuing          education.           In fact,     to date      29 states        plus    the

District        of Columbia         believe       it is sufficiently             important

that     they    have made continuing                education       mandatory.          There     is

a growing        trend       i.n states      to adopt mandatory             continuing

education         legislation.


American       Dental        Association       Activities


Your report         quite      accurately        states   the American      Dental

Association’s           position       on licensure       by credentials.         we

support       licensure        by credentials.           However,    we also    firmly

support      the notion          that    this     is an issue     to be addressed       on a

state     by state        basis.       Professional       licensure      has been a

traditional          area    of state        regulation,      and we Support      the

rights      of the states           to make their        own decisions       in this

area.


The Association believes that it has contributed proactivelY

to state acceptance of licensure by credentials through its

many activities in support of credentialing.                         These include

most significantly a national               conference       on licensure       hosted

by the ADA in July          1992.     This conference,          which was attended

by representatives          of the educational          community,      state      regu­

latory     agencies,     and other     interested       groups     and individuals~

provided      a forum for the communities              of interest      to discuss

progress      toward   appropriate       opportunities        for licensure          by

credentials.         The conference        included     presentations         and

workshops       that  provided     the participants          with    a forum in

    Mr~ Mitchell
    May 28, 1993
    Page 3       ~


    which to develop              their     own strategies            for irnplementati.on        of
    licensure         by credentials            in their      states.         The conference
    also    sparked         a momentum for several                new and important
    resolutions           that    were adopted         by the ADA~S House of Delegates
    in October          1992.       These resolutions            provided        direction     on
    specialty         licensure         by credentials;           supported       ADA efforts      to
    encourage         state     regulatory         agencies       to accept        a common core
    of requirements             and guidelines           for clinical          examinations;        and
    directed        the appropriate             agencies      of the ADA to urge all
    dental      licensing         jurisdictions          to utilize         the ADA guidelines
    for licensure            by credentials.             In short,        ADA’s policy        on
    licensure         by credentials            is not simply           a statement        of
    position.           It is a core policy              that     is actively — supported
    by the Association.

    Conclusion

    In conclusion,       new data       for the first      five   months   of 1993
    supports      the overall      trend     noted  i.n your report:       more and
    more states       ~    adopting       licensure    by credentials      legislation
    and regulations.          While the trend         may not be as rapid         as
    credentialing       proponents        would like,    change     is coming     in a
    well-reasoned       manner.

    The American    Dental   Association      supports    licensure      by Cre­
    dentials   but just    as firmly     supports    the               right
                                                                    of states    to
    make their    own determination       about   whether    more licensing
    laws and regulations should permit credentialing.                    At the

    same time, we have taken a number of active steps, partic­

    ularly in the past two years, to assist states in moving

    toward licensing by credentials, and will continue our

    efforts in this regard.


    Thank you again for the opportunity                        to comment        on your
    excellent report.


    Sincerely,

-   ‘f&’’lj’lj~DD~
        .
    Executive
               ..    Director
                                �




    JSZ/MKL
                                                                             l)vo Peachtree Street

                                                                             Sixth ??bor

                                                                             Atlanta, GA 30303

PRESIDE\’T
Ii ]osePh Alderman.   DDS, MPH
                                              Phone: (404) 657-2575

Office of Dental Heaith
                                                     F~:     (404) 257-6631

878 Peachtree St., NE R-215

Atlanta GA 30309
                                                            June 7, 1993

Phone 404/894.6684

Fax: 404/894-7799


PRESIDENT-ELECT

Richard   j. Hastreiter,   DDS,   MPH
   Bryan B. Mitchell

Minnesota Dept. of Heaith
               Principal Dep~ Inspector Geneml

717 Delaware SL, SE

Minneapolis.   ,MN 55440
                Office of Inspector Genend

Phone 612/ 623-5441
                     Washington, D.C. 21201

FaJC 612.’623.5043

\TCE-PRESIDE!ST

Mark D. Siegai. DDS, MPH

                                         Dear Mr. MitchelZ:

Division of Dentai Health

246 N. High Street

P.O. Box 118
                                     Zhank you for the opportunity to nspond to the Office of Inspector
Columbus, Ohio 43266.0188
               Genend drq/1 report, The Licensum of Out~f-State Dentists. ” l%e
Phone 614’466-4i80

Fax: 614/644.9650
                       Association of State and Territoti Dental Directots (ASZDD) is an ~~e
SECRETARY.TRE.4SURER
                    of the Association of State and TehoM           HeaUh Officials (ASZEIO).
.M. Dean Perkins, DDS
                   Membership is composed of the Chief Den@ Officer of the Depa~eti             of
Bureau of Dentai Health

P.0. Box 570
                            HeaUh, or equivalent public health agency        of tie states, teniton”es, or
Jefferson Ciw, Missouri 65101
           possessions of the United States. ASTDD considers pollcies or
Phcme 314/751.6247

Fax 3i.$/i51-6010
                       recommendah”ons of private orpublic agencies pe~”ning to omi and dental
PASTPRESIDENT                            health, and adopts policies for gutice        of its membem. 17zis mponse
Robert Isman, DDS, MPH
                  represents my opinion and expen”ence as AS~D president and diplomate
Dentai Heaith Section

CA Dept. ot Heaith Serwicea
             of dental public health, one of the ea”ght American         Dental Association
P.O. Box 942732
                         dental speciahies. Ilis nport is not necessmiiy the officihl potion of
Sacramento,    C.+ 94234.7320

Phone 916,324.2230
                      ASTDD, but the Erecutive Committee of ASll)D has ~viewed the mpoti.
Fax: 916.’ 324.7764
                              State dental ptvgmms should aid in the ticensing and credenmg
DIRECTORS                                of dentists. For example, the State De& Director in the Rhode Island
B,. Enrw,sciti. RDI-LMPH                 DeF=~ent of He~fih ~en,es ~ the ~ai~enon            of the P&ode Island Boani
Eirwr Green. DDS,          MPH
lack Dillenberg. DDS, MPH                of Eraminem in Dentistry. 71iis & ws for cootiitiion           of the two state
\, F1,~SLETTFR      EDITOR
                                         entities, and increased public accountability. It bn”ng access to care and
 L ~onan Davis, D\{D, MPH
I?cnral Iicaith Division                 public heai’th to the foreftvnt of discussions that might be considered se~­
Bureau oi Famdv Hcaith Services          servi”ngto pn”vate pmcticing dentists or other Weciai interwt grvups. iUOst
Sate Otfict i3uiidmg
:34 i([}nroe Street                      Board appointments are made by the Governor fmm dentists recommend~ -
Mt.ntgt+nicr:, .+L 5613P                 by state dental associations. However, state dental prvgmms are hating-
Phone: 295 ‘Z.+2.5057
F4x: 2P5,’2K-3097                        m@or problems. A December 1992 ASZDD Survey indicated: a. 10 @OYO~
                                         states have no state dental pmgmm; b. 3 (6qo) stutes have dental p~g~$
                                         but no director; c. 32 (64%) states have a fuU tie director; and d. 5 (10%)
                                         states have apart time director. All state omJ hedh     pmgmms     must be able
                                         to perform the core functions of assessment, poiky           development, and
                                         assumnce.
ASTDD Letter: B~an B. Mitchell: Page 2




         ASTDD continues to be concerned about the lack of access to oml heahh serw”ces, and
would suppott methods to increase access to care while ensun”ng quality of care. Access to care
is a complex issue. Makiiistribu~”onof dental heailh care wonkers is a problem in many stiztes
including Georgiu. A public health license by credentials has helped bn”ngpublic hetdlh dentists
to Geo@a. l%ik has helped in undememed areas and institutions. IZe Gee@                       Bod    of
Dentistry now requires dentists with a public health license to take the next available Boani, and
this has inhibited recnulment of public heakh dentists. Fortunately Georgia has started to accept
the Southern Regional Boanis which should help with the decreased numbem of licensed dentists
in our State.
         Specialky Boani licensure by cndentials should help, (e.g. Boani qualified or cetified
specialists in good standing with their Specialty Boanis). However       the present method in many

states of requin”ng the clinical board and then the Specialty Boani does not help recwit competent
dentists for the public sector, or vatius specialties. Speciidty licensure must not be used to restrict
competent piimary care dentists (i.e. geneml dentists) fmm providing specially services. Ailhough
the majority of dentists and the American Dental Association SUppOtt licensurw by cmdentibls
many of the ‘decision makers n both on State Boanis of Dentistry and State Dentlzl Associations
remtu”nopposed.
         Even though you state ‘most applicants pass the examinations N@age 6), individuals who
attempt the examinatM‘ ns are a select group, and do not include many expen”enced dentists who
do not want to go through the truuma of another Boani.
         Ilere may be some variations in the quality of gmduates, but in my opinion a national
clinical board should be explored. If the National Pmctitioner Data Bank does not include
necessary information about disciplined dentists, the individual state boards could be contacted
prior to licensure by credentials. l%e example of “one” dental school dean who fa”led the clinical
examination three times @age 8) does not significantly strengthen opposition to licensurz by
credentials. Seveml examples of the most              ‘clinically” competent gmduates fiu”ling the
examinations can also be found.
         A mqior injlux Rf out-of-state applicants forthepopuiution grvwth states shouki eventually
be soh’eti ~ supply and demand, not by examinations restn-ctions.
         If dentistry is concerned about quality of dentists, some periodic assessment of competency
should be established. It might be helpful to compare how the phym”ctins handle licensum by
credentials and quahly of care issues, especially in isohzted prnctices (e.g. nmzl). It is interest?’ng
that once licensed, one can pmctice ‘forever. n Monitoring ail physl”cal and mental disabilitie~ ­
 (e.g. impaired vision) cannot be expected to be handled by ovenvorked Eramining Boards as they -
are currently configured. Licensure by credentis,        in conjunction with a n@”onal clinical exam,
would allow state boanls to focus on more important issues like inve~”g~”ng compkzints against
and apprvptiely       discipline licensees, or contz”nuedcredentialing past initial licensure.
          Continuing education does not ensure quality care. Many pmctitioners take courses they
like, mther than courses they need. Assessment of what a dentist actually learned fmm a course
 (e.g. knowledge), does not necessady tmnshte into changes in pmctice or attitude.
ASTDD Letter: Bryan B. Mitchell: Page 3



        Although the present growth and acceptance of regional boanis is to be commended, a twi
licensure by credentials could ensure quality of cam, and help provide access to -             in
undemewed areas. Re@”onal Boanis could begz”nto form a national clinical euun by u~g
exiti”ng regional boards. However, licensure by cnde&       orfinancing thrvugh public orprivate
insumnce does not guamntee access to onzl hedh cam. other barn”em to access include
economic, geogmphic (nmzl, tmnsients, migmnts), cultuml,            and educational, as weg as
individuals who are institutionalized, homebound, or have handicapping conditions.
        I hope this information is helpful in your delibemtions concerning licensum of dentists.
Xhe licensure and shoriage of dental hygienists is another issue that shouhi be addressed.
ASZDD and ASTHO are working to establish a National Oral HeaUh Agendh. ASZDD is an active
member of the Coalition for Oml Health and strongly SUppOHSthe inclusion of oml health in
heakih care reform. We believe that ASZDD cooperation and col,lizbomtion with fede~        state,
and local agencies, the pn”vate sectom of dentistry and dental hygl”ene, and oml hedh advocates
is the key to ensun”ng that eve~one can enjoy good oral health and an enhanced quality of we.
If I or this organization can be of any futther assistance, please let me know.




                                                  Sincerely,



                                                  E. Joseph Alderman, DDS, MPH
                                                  President, Association of State
                                                  & Ternloti    Dental Directonr

EJA/ja

cc:	     ASTDD Erecutive Committee
         AS1’HO Executive Director
                           APPENDIX                   D


                                   ENDNOTES



1.	   American Dental Association, Report of the Divkion of Education:    Dental
      Licensure, April 1992.

2.	   The American Association of Dental Schools (AADS) has also addressed the
      licensure by credentials issue. Of particular note is a 10-part 1991 policy
      statement (presented in appendix C of this report). It calls for AADS to
      cooperate in efforts “to develop uniform standards for licensure and
      credentialing that would permit freedom in geographic mobility for dentists and
      dental hygienists.”

3.	   Charles R. E. Koch, cd., H&to~ of Dental Swgev, Vol. 1, (Chicago: The
      National Art Publishing Co., 1909), p. 691.

4.	   According to the American Dental Association, during the years between 1987
      and 1993, 16 States authorized their dental boards to grant licensure by
      credentials: ~    AR, CT, GA IL KY, ~        NJ, OH, SC, SD, TX, Vi WA
      WI, and WY. One State board which did not exercise its authority in 1987 did
      SOby 1993: ND.

      Three States, the ADA reports, moved in the opposite direction by removing
      the authority to grant licensure by credentials: RI, TN, and VT. And three of
      the State boards with newly acquired authority have yet to exercise it: GA SC,
      and VA.

      on balance, the number of State boards that grant licensure by credentials
      increased by eleven between 1987 and 1993. See appendix A.

5.	   See American Dental Association, Report of the Division of Education: Dental
      Licensure, April 1992, pp. 436-41.

6.	   Indeed, in a number of States that do not grant licensure by credentials, most
      of their licensees are graduates of out-of-State dental schools.

7.	   An American Dental Association report describes the process as follows:
      “Location of patients for examination in another state or distant city is one of
      the most difficult parts of the examination process. The patients have to have
      the required oral problems, and they have to be willing to undergo a long and
      demanding series of procedures. They have to be cooperative, patient and



                                         D-1

        neutral. They have to be prepared to receive treatment that may not be at an
        acceptable level.” See American Dental Association, Repoti of the Division of
        Education: Dental Licensure, April 1992, p. 429.

8.	     A recent article reporting “significant variation within and among state and
        regional dental board clinical examinations” seems to support the point, as the
        authors suggest, “that factors other than the ability of the candidates influence
        exam outcomes.” See Peter S. Damiano, Daniel Shugars, and James Freed,
        “Clinical Board Examinations: Variations Found in Pass Rates,” Journal of the
        American Dental Association 128 (June 1992): 72.

9.	     See Susan E. Lovelace, “States Divided,” Journal of the Cahfomia Dental
        Association 16 (February 2, 1992): 21.

10.	    The States were California, Florida, North Carolina, Texas, and Washington.
        See American Dental Association, “Report of the Special Committee to Study
        Freedom of Movement and Licensure Issues,” ADA Annual Repotts, 1989.

11.	    Such doubts were expressed by representatives of State dental boards that grant
        licensure by credentials as well as those from States that do not. In fact, many
        in the former group of representatives were quite sympathetic to the reasons
        advanced by the latter for not granting licensure by credentials.

12.	    In our survey of the State dental boards we asked for information on the
        number of licensure applications and the number of licenses granted in
        calendar year 1991 or the fiscal year ending in 1992. The great majority of the
        boards provided this information. However, few provided information in
        response to our questions concerning whether or not those applying for a
        license and those receiving one held a dental license in another State.

        For example,among thesevenStates        leading thenationinpopulation
   growth

        inthe1980’s,   onlytheNorthCarolina      boardansweredthesequestions.
    It
        indicated that 34 percent of its 144 licensure applicants in 1991 already held a
        license in another State and that 17 percent had done so for more than 5 years.
        Among the 121 individuals granted a dental license in 1991, 35 percent already
        held a license in another State--l6 percent for more than 5 years.

 13.	   Here again, many among the dental board members we spoke with who came
        from States granting licensure by credentials were sympathetic to this point of
        view.

 14.	   See Preston A. Littleton, Jr., “Educating Dentists for the Future,” in Human
        Resources for Health: Defining the Future, C. McCollister Evarts, Peter P.
        Bosomworth, and Marion Osterweis, eds., (Washington, D. C.: Association of
        Academic Health Centers, 1992), p. 142.




                                            D-2

15.	    American Dental Association, The1991Survey        of Dental tiactice: General
        Charactetitics of Dentists, April 1992, p. 2.

16.     See Littleton, p. 142.

17.	    The American Dental Association, American Association of Dental Examiners,
        American Association of Dental Schools, and other major dental organizations
        provide support for this contention. In making the case for the funding of a
        proposal to develop interactive computer-based patient simulations, they point
        out the following:

               “Dental practices generally are not    reviewed by external organizations,
               nor are they required to participate    in systematic quality assurance
               activities. Assessments of provider    competency are limited to a one-time
               state or regional examination prior    to being granted a license to practice
               general dentistry.”

        See Dental Interactive Simulations Corporation, Conzputer-llased Simulations in
        Dent&try, a grant application developed and submitted by the Dental Interactive
        Simulations Corporation, undated, p. 14.

18.	    In recognition of this situation, the W. K Kellogg Foundation in 1982 funded
        Alvin Morris and other researchers at the University of Pennsylvania “to
        develop new methods and technologies that can be used by individual dentists
        and the dental profession to assess the effectiveness and efficiency of the full
        scope of dental practice.” This ambitious effort resulted in the development of
        an assessment instrument which a trained team of evaluators used to conduct
        l-day on-site assessments of a national sample of 300 dentists who volunteered
        to participate. The project generated many articles, but to this point little
        sustained follow-up. See Alvin L. Morris, J. Marvin Bentley, Anthony A. Vito,
        and Marguerite R. Bombs, “Assessment of Private Dental Practice: Report of
        Study,” Journal of the American Dental Association 117 (July 1988): 153-162.

 19.	   American Dental Association, “State Dental Board Continuing Education
        Requirements for Dentists,” August 1992.

20.	    We sought data from the regional testing agencies and from the States that
        conduct their own clinical examinations to determine the proportion of
        applicants passing the examination--distinguishing out-of-State applicants who
        had been practicing for more than five years from other applicants. However,
        the data we obtained were extremely limited and insufficient to offer any
        generalizations on the proportions passing the examinations. Such data could
        add some valuable information to discussions of the pros and cons of licensure
        by credentials.

 21.	    American Dental Association, “State Dental Board Continuing Education
         Requirements for Dentists,” August 1992.


                                            D-3

             Depafiment of Health and Human Sewices

                    OFFICE OF
               INSPECTOR GENERAL




         THE LICENSURE OF OUT-OF-STATE
                         DENTISTS




                         AUGUST Igg3



——____ —._
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries seined by those programs. This
statutory mission is earned out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Semkes, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Semites (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Offke of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Participating in this project were the following people:

Boston                                               Headquarters
Barry McCoy, Lead Analyst                            Alan S. Levine
Ted Wall, Program Analyst

For additional copies of this repo~ please contact the Boston regional office at 617/565-1050.
    Department of Health and Human Setices

           OFFICE OF
      INSPECTOR GENEML




    THE LICENSURE OF OUT-OF-STATE
                  DENTISTS




           AUGUST Igg3
I                        OEI-01-92-~20
              EXECUTIVE                         SUMMARY


PURPOSE

To describe and assess State dental board policies for licensing dentists already
licensed in another State.

BACKGROUND

Dentists who have a license in one State and wish to obtain one in another face two
different paths to licensure. In one group of States, they can get a license through a
process called “licensure by credentials.” It allows for the granting of a license on the
basis of established credentials, with no further examination requirement. In the other
group of States, the out-of-State dentists must pass a clinical examination, regardless
of their experience and credentials. The examination is the same one given to those
seeking an initial dental license. It involves the use of a live patient and calls for the
applicant to find a willing patient with the necessary oral problems.

The chairman of the Subcommittee on Small Business Opportunities and Energy of
the House Committee on Small Business asked the Office of Inspector General to
conduct an inspection.    He was concerned that the failure of many States to provide
licensure by credentials might be detrimental to consumers and might impede access
to dental services for those living in underserved rural or inner-city areas.

This report responds to his request. It draws on a survey      of the dental boards for 50
States and the District of Columbia (hereafter referred to     as a State), a review of the
professional literature and existing data on State licensure   policies, and interviews with
representatives of State dental boards and national dental     organizations.

FINDINGS

Twenty-nine States grant Iicensure by credential    an increase of 11 since 1987.

  �
       The 29 States are concentrated   in the Northeast and Midwest.

  �	
       The coreargument in favor of Iicensure by credentials is that it facilitates
       freedom of movement by practicing dentists.

Twenty-two States do not grant licensure by credentials.

  �	
       They are concentrated in the South and West and include six of the seven
       States leading the nation in population growth between 1980 and 1990.
      b
            The core argument in opposition to licensure by credentials is that it fails to
            offer adequate assurance of the competency of the out-of-State dentists seeking
            licensure.

The clinical examination
                       which22 Statesrequireofout-of-state
                                                       dentists
                                                              seeking

licensure  provides
                  a checkon thecontinued                    dentists.

                                        competencyofpracticing     But

theseStates  do notapplytherequirementor anysimilar        ofcompetencyto

                                                  assessment

dentists alreadypracticing
                         withintheir

                                   borders.


The          tionrequirement
          examina          can impedeefforts
                                           torecruitindividual
                                                             dentists
                                                                   willing
tolocate in underservedareaswithintheStates.
                                           Yet we foundno da@ norany

studi+  tosupporta contention                    bearingon accesstodental
                             thatithasmuch overall

careintheseareas.

CONCLUSION

Since 1987 dentists have come to enjoy somewhat greater freedom of movement as
more States have established licensure-by-credentials policies. Yet, within the
profession, controversy over the issue remains and may even have intensified.

our inquiry has not provided a basis for supporting or opposing licensure by
credentials. It has, however, identified two closely related issues that are of
considerable significance to dentists and the general public. These are:

  �	
            the minimal degree to which States currently assess the continued competency
            of practicing dentists, and

  �	
            the questionable performance of many State dental boards in carrying out their
            enforcement and discipline responsibilities.

E State governments and dental organizations, such as the American Association of
Dental Examiners, the American Dental Association, the American Association of
Dental Schools, and the Association of State and Territorial Dental Directors, focus
constructively on these issues, support for licensure by credentials could broaden
considerably. More importantly, the public could receive increased protection for the
close to $40 billion a year it is spending on services provided by about 145,000 dentists
across the United States.

COMMENTS             ON THE DRAFT REPORT

We received comments on the draft report from the American Association of Dental
Examiners, the American Dental Association, the American Association of Dental
Schools, and The Association of State and Territorial Dental Directors. In appendix
C, we present each set of comments in full. In response to the comments, we have
made some technical corrections and some updates in our data on States’ practices
concerning licensure by credentials.


                                                ii


                --
                                    TABLE                    OF CONTENTS


                                                                                                                                PAGE
           =~                 s~y
           -mJcrT(IN....             .................                         . . . . . . . . . . . . . . . . . . . . . . . . . . .. I
           mince           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..4
            �    Current Practices      ..........
                                                     . . . . . . . . . . . . . . . . . . . . . ..O
                                                                                                      . . . . . . ..O . . . . 4
         . Rationales . . . . . . . . . . . .
                                               ................
                                                                               . . . ..O . . . . . . . . .OO
                                                                                                                  ....... 5
           Consequences
           �                 ..........
                                                 .................
                                                                                   . . . . . . . . . . . . . . . . . . . ..O
                                                                                                                              8
       ~NcLIJSION       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. II

      ~=NTsONTHED~~PORT                                                  ..........
                                                                                            . . . . . . .0 . . . . . . . . . . .
                                                                                                                                 12
      APPENDI~

      k	        State Dental Board Authorities and Practices in Granting Licensure
                by Credentials to out-of-State Candidates: 1987 and 1993 . . . . . . . . . . . . . . A-1

     B: Credentialing Requirements Imposed by States that Grant Licensureby
          Credentials, 1993 . . . . . . . . . . . . . . . . . . . . . .
                                                                         . . . . . . ... . . . . . . . . . .
                                                                                                             . . . . B-1
     C Detailed Comments on the Draft Report . . . . . . . . . . . .
                                                                                        . . . . . . ... . . . . . . c-1
     D:-- ~ndnotes . . . . . . . . . .
                                       . . . . . . .. . . . . . . ...
                                                                      . . . . . . .. . . . . . . .. . . . . . . ..
                                                                                                                     D-I




——
    7
    {
                                  TABLE 1
    ‘1
    ~, THE AMERICAN DENTAL ASSOCIATION AND LICENSURE BY CREDENTIALS:
                           AN HISTORICAL SKETCH
                                                   SIGNIFICANT ACTIONS
               heti~n Dental-Iation            (ADA) survey of mem&ship        indicates that 62 percent favor licensure
               by credentials.

               ADAHouse of Delegates passes a resolution calling for Stat= to “consider including in their practice
               ~cts” proviSons for waiving the written and clinical Iicensure examination requirements for candidates
               who are licensed in another State.

               4DAHouse passes a resolution setting forth guidelines for licensure by credentials. The resolution
               lotes that the ADA “believes that an evaluation of a practicing dentist’s theoretical knowledge and
               :linical skill based upon his performance record can provide as much protection to the public as
               vould an evaluation based upon examination.”

               4DAsurveyof       its membership show that 77 percent favor Iicensure by credentials.

                4DAHouse adopts a resolution calling for ADA “to appoint a committee to study the freedom of
               movement and Iicensure issues” and to report back to the Housein 1989. It also calls for ADA in
               cooperation with the American Association for Dental Examiners (HE)           to study “(1) the
               comparability of clinical examinations in use for dental licensure and (2) the feasibility of identifying
               reliable standards for evaluating clinical competency.”

               The committee to study freedom of movement and Iicensure issues sumeys States with and without
               [icensure by credential. Drawing on the committee re~rt, the ADA House passes resolutions
               extending the ADA’s Iicensure-by-credential guidelines for the States, calling for ADA and ME
               to study the development of mutually acceptable continuing com~tence criteria, and urging State
               boards of dentistry to grant mutual acceptance to State or regional clinical iicensure examinations
               found to be comparable.

               ADA/AM3E       study produces “Guidelines for Developing Dental Limmure Clinical Examinations.”             It
               identifies the minimum common core for a clinical Iicensure examination.

               Congressman Bob Livingston (LA) introduces in the U.S. Houseof Reprewntatives H.R. 5444 to

               require State dental boards to grant licensure by credentials. No action taken on bill.


               Congressman William Jefferson (LA) introduces in the U.S. HOUWHR. 2691, a bill “to prohibit

               discrimination by the states on the basis of nonresidency in the licensing of dental health care

               professionals.” ADA House of Delegates narrowly votes down a resolution calling for the ADA to

               “actively support H.R. 269 1.“


               ADA/&%DE committee produces “Guidelines for Valid and Reliable Dental Licensure

               Examinations” in order “to further inform dental testing agencies concerning test procedures that will

               comply with professional testing standards.” The ADA and AADE convene a national conference to

               address the document. Examination committee chairs of 20 of the 22 regional and State testing

               agencies make up the primary audience.


               ADA convenes a national conference on licensure by credentials.       It draws together more than 230

               participants in an effort “to find common ground.”


               ADA House passes resolutions on Iicensure by credentials. Among them are ones calling for “all

               dental jurisdictions to follow the recommendations of the Joint ADA/WE           Guidelines for Valid

               and Refiable Dental Licensure Clinical Examinations,” offering further elaboration of ADA’s

               Guidelines for Licensure by Credentials, and urging State dental boards “to implement specialty

               licensure by credentials and/or specialty licensure examination as a top priority.”


               ADAHouse of Delegates, by a considerable margin, votes dow a resolution in support of H.R.

               2691. H.R. 2691 dies with the close of the 102nd U.S. Congress in 1992.

    1
        1993   Congressman Michael McNuky (NY) introduces H.R. 729, parallel to H.R. 2691 of 1991.



                                                            2


—
In 1992, Congressman Ron Wyden, Chairman, Subcommittee on Small Business
Opportunities and Energy, House Committee on Small Business, began his own
investigation of the matter. He was concerned that the reluctance of many States to
grant licensure by credentials might be detrimental to consumers and might be
countering efforts to improve access to dental services in undersexed rural or inner-
city areas. As a result, he asked the Office of Inspector General to conduct an
inspection on the nature and implications of State dental board policies in licensing
out-of-State dentists. This report responds to his request and follows up on a report
concerning State dental boards that we issued in 1988 (“State Licensure and Discipline
of Dentists,” OAI-01-88-00580). It describes the current situation concerning the
licensure of out-of-State dentists. It explains the primary rationales for and against
licensure by credentials. And it identifies some key factors relevant to an
understanding of the consequences associated with the practice of granting licensure
by credentials.

METHODOLOGY

In the report we drew on five major sources of information.    Each is identified briefly
below.

      A survey of all State dentalboards.We conducted a mail survey of all State
      dental boards. We sought information concerning board resources and
      authorities and board actions involving licensure, enforcement, and discipline.

      The professional literature. We reviewed articles identified through a search of
      the National Library of Medicine’s on-line data base.

      Existing data and materials available from the ADA and the American
      Association of Dental Examiners (AADE). We reviewed existing data on State
      licensure policies, reports on existing policy positions of the organizations, task
      force reports, and other internal documents.

      Personal interviews. We interviewed representatives of national dental
      organizations, regional testing agencies and State boards, and individual
      dentists. Our attendance at the August 1992 ADA conference on licensure by
      credentials offered a good opportunity to conduct many such interviews.

      Focus group sessions. During the ADA and the AADE annual meetings in
      October 1992, we conducted locus group sessions addressing the rationales and
      consequences of licensure-by-credentials policies. One group was composed of
      representatives of States granting licensure by credentials; the other of
      representatives of States that do not.

We conducted our review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            3

                                         FINDINGS


CURRENT       PRACTICES

Twenty-nine States grant licensure by credentials, an increase of 11 since 1987.

   �
        The 29 States are concentrated            in the Northeast and Midwest.

   �	
        Twenty-two of them grant lkxmsure by credentials to applicants from all States;
        7 do so only for applicants fkom States with similar practices.

   �	
        States that provide licensure by credentials still impose various requirements on
        applicants. Most common are those calling for applicants to be in active
        practice, receive a favorable report from the dental board in their former State,
        and agree to a personal interview.

In 1909, in a book on the history of dental surgery, the author noted that eight States
had a system for granting licensure by credentials and that in time such practice “will
become general throughout the country.”3 Eighty-four years later, the practice has
increased but is still far from general. About half of the States will grant a dental
license on the basis of a licensed dentist’s credentials; about half will not (see
appendix A).

Since our review of dental Iicensure practices in 1987, the number of States that
exercise licensure-by-credentials authority (on either a complete or restricted basis)
has increased by one-half.4 The growth, however, has reinforced a long-existing
geographic concentration of such States. They remain heavily concentrated in the
middle and northeastern portions of the country (see figure 1).


                                      FIGURE 1: STATE DENTAL BOARDS AND
                                    UCENSURE BY CREDENTIAL AUGUST 1993



                      ..
                        tit­
                               �




                               “-
                                -


                                        Z? EXERCISE AumOlu&          3 HAVE AUTHOIWW SUT
                                        FULLY                        DO NOT EXERCISE K


                                        7 EXERCISE AUTHORllY         1S HAVE NO
                                        ON A UMITED SAW        -     AUTHORITY

                 Sculax krm?lGmchmiAswddxl    ml OtRad!nspoduQ,ns@



                                                        4

In the 29 States that offer licensure by credentials, out-of-State dentists seeking a
license do not automatically receive one. Their credentials are still subject to review.
This review varies widely among the States in terms of both the type and extent of
requirements (see appendix B). One State has a particularly exacting review process
that calls for applicant dentists to submit a sample of patient records for board review.
It reports denying licensure to 5 to 10 percent of its licensure-by-credentials applicants.

Twenty-two States do not grant licensure by credentials.

  �
        They areconcentrated
                           intheSouthand West and include

                                                        sixoftheseven

        States      thenationinpopulation

              leading                   growthbetween1980and 1990.


  �	
        In 19 oftheseStates,
                           thedentalboardhasno authority
                                                      toprovidelicensure
                                                                      by

                   in3 ithastheauthority
        credentials;                                    h.

                                       butdoesnotexercise

The 22 States that do not grant Iicensure by credentials represented the major growth
areas of the country in the 1980’s. Collectively, their population grew by 19 percent
from 1980 to 1990 while that of the other 29 States grew by 5 percent. Included
among the 22 are 6 of the 7 States with the largest population increases during the
decade: California, Florida, Georgia, Arizona, Virginia, and North Carolina.

Among the States that do not grant Iicensure by credentials, there are some signs of
change. Whereas in 1987 only one had the authority to engage in such practice (see
appendix A), by 1993 three had such authority. In others there is active inquiry into
the matter that could well result in some liberalizing changes.

Yet in these 22 States, the entry-level clinical examination remains as a major gateway
to licensure, even for dentists who have specialty practices and/or have many years of
experience. Eleven of these States devise and conduct their own examinations; the
other 11 typically rely upon 1 of the 4 regional dental testing services.5

RATIONALES

The coreargumentinfavor of Iicensure by credentials is that it facilitates freedom of
movement by practicing dentists. Supporting arguments are that it:

   �
        presents
               minimalriskbecauseofthedisciplinary
                                                actionclearinghouses

                                                                 runby
        theNational          Data Bank (NPDB) and AAD~ and

                  Practitioner

   �	
        rests
            on a baseofposhiveexperiences
                                       inStates
                                              granting
                                                     licensure
                                                            by

        credentials.

To practicing dentists living in a highly mobile American society, licensure by
credentials makes good sense. It facilitates their freedom of movement from one
State to another. Whatever their motives for moving--be it to live in a better climate,
establish a more lucrative practice, accommodate a spouse who has an attractive


                                             5
employment opportunity, accept a teaching position at a university, or work in a clinic

in an underserved area--the availability of licensure by credentials makes it easier and

more possible for them to move than if they had to pass an entry-level examination in

general dentistry.


Dentists recognize that the examination requirement is not an impenetrable barrier to

licensure and that most applicants pass the examination.b Yet they raise concerns

about it. Most prominent among them is the cost and inconvenience associated with

taking the examination and finding patients who will be part of the examination.’

Another concern is the relevance of the examination for experienced dentists who are

specialists in fields such as periodontics or orthodontics. Still another is that the

examination requirement might have more to do with reducing competition to dentists

already practicing in highly desirable States than with assuring appropriate

qualifications of out-of-State dentists!


In response to those who argue that licensure-by-credentials States will be vulnerable

to “bad apples” who move from State to State, proponents point to the establishment

and operation of the national clearinghouses on disciplinary actions run by NPDB and

AADE. Between them the clearinghouses provide all State boards with access to the

names of dentists disciplined by other State boards, professional associations, or

hospitals.


For example, in a letter to Congressman John I)ingell (NH), one dentist stressed the

significance of the NPDB and concluded: “There is no longer a need to restrict the

movement of all dental health care professionals because this national clearinghouse

of information detects the few who try to move around for unprofessional reasons.”9


To further their case, proponents also point to the experiences of those States that

have granted licensure by credentials for a number of years. If the practice were

harmful to the public, would these States continue to practice it, they ask. Before

1987, one State did rescind its licensure-by-credentials practice, largely because of

concerns about a few dentists who had been licensed by this route and who it later

found had been disciplined in another State. But it has since reestablished the

practice and reports no subsequent problems. Similarly, representatives from other

States that engage in the practice reported to us that they have had no bad

experiences and expressed confidence in their own credentials review process as a way

of weeding out problem cases.


Two States we contacted had actually reviewed the number of disciplinary actions they

had taken against dentists to whom they had granted Iicensure by credentials. One

State found that of 59 dentists issued a license in this way since 1974, only 1 was

subsequently disciplined. The other reported that of 171 dentists licensed by

credentials in the last 10 years, only 1 had a complaint lodged against him. This

represented less than one-half of 1 percent of all complaints lodged during this period.





                                            6

‘I’he coreargumentinopposition
                          to liccnsure by credentials is thatitfadstooffer
adequateassurance
                ofthecompetencyofout-of-State   dentists seekinglicensure.

         argumentsarethat:

Supporting


  �	
       theNPDB and AADE clearinghouses have limited information and can not
       compensate for the inadequate enforcement efforts of some State dental
       boar(ky and

  �
       theclinical
                licensure
                       examinationrequirement
                                            isa vital
                                                    safety
                                                         valve,
                                                              especially

       forStates                           seektomove.

               towhichlargenumbersofdentists

From the opponents’ camp comes the message that what licensure-by-credentials

advocates are seeking is “licensure by convenience,” without regard for a board’s

obligations to protect the residents of its State. In that context, they cite two

fundamental bases for their contention that licensure by credentials fails to provide

adequate protection.


One is that some of the out-of-State applicants may not be sufficiently competent,

This reservation rests largely on perceived variations in the quality of dental schools

and their graduates. Indeed, a committee formed by the ADA to study freedom of

movement and licensure issues reported in 1989 that these perceived variations were a

primary reason why five States surveyed opposed licensure by credentials.l” The

reservation about out-of-State dentists, however, involves more than dental schools; it

also extends to dental boards and to their capacity and readiness to identify and then

respond to incompetent and/or unprofessional dentists. Dental board officials we met

with doubted the adequacy of the enforcement efforts of many State boards and even

the willingness of some boards to strengthen these efforts.ll


The other fundamental basis offered for opposing licensure by credentials is that, in

itself, it is not a credible basis for granting licensure. The argument is that the

credentials available for review, the lack of any disciplinary action, the receipt of a

supportive letter from a board or character witness, the conduct of a personal

interview, and the like simply fail to offer adequate assurance of the competency of a

dentist. A dental board owes the residents of its State greater assurance than such

factors provide.


In this context, the fact that the NPDB and AADE clearinghouses offer a source of

information about disciplined dentists presents little assurance. The latter, they point

out, does not receive reports from a number of States and the former does not include

any disciplinary actions taken prior to October 1990. Even more significant, they add,

is that both of these clearinghouses identify only those individuals who have had

formal action taken against them. That a dentist’s name does not appear in either

clearinghouse is no assurance that he or she is competent; nor does it preclude the

possibility that the dentist is under investigation.





                                            7

Thus, the opponents of licensure by credentials hold to the argument that a clinical
examination provides a minimum necessary check to impose on any dentist wishing to
practice in a State. Many of them will grant that the examination itself is not a sure
measure of competence and that better mechanisms can probably be developed. Yet,
even as it is, they assert it provides better protection than that offered through
Iicensure-by-credentials reviews. For example, one dental board member told of a
dental school dean who on paper had excellent credentials and would have easily
passed a Iicensure-by-credentials review, but failed the board’s clinical examination
three times.

Further, representatives from States facing a major influx of out-of-State applicants for
licensure say that they have a particularly compelling need to go beyond a case-by-
case review of a candidate’s qualifications and rely upon a standardized examination to
help them assess a candidate’s capacity to practice dentistry. For dental board officials
from California, which had 1,294 dental licensure applicants in 1991 or from Florida,
which had 631, the positive experiences of Iowa (70 applicants), Minnesota (93), or
other States which have much smaller number of applicants (and can more readily
give each candidate individual attention) seem of little relevance.12 It is not, they
note, a matter of keeping out the competition, but giving their residents the assurance
that licensed dentists are sufficiently competent to practice.13

CONSEQUENCES

It is reasonable to ask what if any notable consequences are associated with the
practice of granting licensure by credentials. We addressed that question as part of
the rationale offered by those favoring licensure by credentials. They cite the results
as positive, with no particular dangers presented to their States’ residents.

We gave more attention, however, to any consequences associated with the practice of
not granting licensure by credentials--that is, of requiring all out-of-State applicants to
take a clinical examination. We did that because the controversy concerning licensure
by credentials has focused on the possibly negative effects caused by the 22 States
falling in the latter category. Our inquiry in this regard was not a comprehensive
assessment of the many possible consequences. At a general level, however, it
surfaced two central findings that are pertinent to further discussions of the pros and
cons of licensure by credentials.

The clinical examin ation
                        which22 States
                                     require
                                           ofout-of-State
                                                      dentists
                                                            seeking
licensureprovides
                a checkon thecontinued

                                     competencyof practicing dentists. But
           do notapplytherequirement
these States                                   assessment

                                    oranysimilar            ofcompetencyto
dentistsalready        withintheir
              practicing         borders.


Dentistry is often referred to as one of the last “cottage industries.”14 The relevance
of this analogy is indicated by the fact that 69 percent of dentists practice alone and
that 89 percent practice alone or with 1 other dentist.]s Thus, dentists tend to have



                                             8

relatively little day-to-day contact with colleagues, other health care professionals, or

with hospitals.lb


Dentists also tend to have little if any exposure to quality assurance reviews once they

receive their initial dental license.1’ Few, for instance, are exposed to the kind of

ongoing oversight which hospitals and the Medicare-funded Peer Review

Organizations conduct on the hospital-based medical practice of physicians.18

Among the 51 States, 30 require some continuing education courses as a condition of

dental Iicensure, but none calls for any assessment of what a dentist actually learned

from a course.lg


Thus, the clinical examination that 22 States require of out-of-State dentists seeking

licensure represents the most significant quality assurance check that licensed dentists

are likely to face in their entire career. Whatever the examination’s limitations as a

competency assessment tool, it affords some basis for determining a dentist’s current

clinical knowledge and skill.zo


Notwithstanding the quality assurance benefits associated with the clinical examination

requirement, the fact remains that the 22 States imposing it on licensed out-of-State

dentists seeking licensure apply it selectively. They require these out-of-State

applicants to take it regardless of their credentials or the nature of their practice, but

they impose no similar requirement on the much larger number of dentists already

practicing in their own States. As in all other States, licensed dentists practicing in

these States are not subject to any ongoing State-imposed assessment of their

competency. In 11 of the 22 States that do not grant licensure by credentials, dentists

do not even have the minimal State-imposed obligation of attending continuing

education courses.21


Some representatives of these States defend this inequity on the grounds that their

own licensees have already passed the clinical examination they require out-of-State

applicants to take. Yet, when questioned, they acknowledge that could have been as

many as 30 to 40 years ago and offers insufficient basis for assuming current

competency.


Thus,however much a clinical examination may help ensure a certain minimum level

of competency, the selective manner in which these States use it makes them

vulnerable to the charge that it is intended to reduce competition more than to protect

patients. One educator who has studied this issue described this situation as imposing

a “secondary burden” on out-of-State “competitors” that does not exist for in-State

“commercial interests”. He adds:


       “State licensing bodies would be hard pressed to maintain that they are

       ensuring the safety and health of in-state residents and not establishing a

       barrier to commercial interests when in-state practitioners may maintain

       Iicensure for a lifetime without some system of retesting and/or

       continuing education.”22



                                             9
    The examination
                  which22 States
                               require
                                     ofout-of-State
                                                dentists
                                                      seeking
                                                            licensure
                                                                   can

    impedeefforts torecruit        dentists
                           individual     willing tolocate inunderserved
 areas
    within theStates.Yet we foundno da@ nor any studies, to support a ccmtention that
    it has much overall
                      bearingon accesstodentalcareintheseareas.


    Another concern associated with the clinical examination requirement for out-of-State
    dentists is that it might serve to hinder efforts to improve access to dental services in
    underserved areas. There are data that lend some support to this concern. Among
    the 22 States, 16 have dentist-to-population ratios below the national average of 57.5
    per 100,000 population. Further, while the 22 States account for 36 percent of the
    licensed dentists in the United States, they account for 54 percent of the 771 dental
    shortage areas and 55 percent of the 423 shortage areas with 20 percent or more of
    the population below the poverty level.n

    A State requirement    that licensed out-of-State dentists take and pass a clinical
    examination as a condition of licensure clearly does not facilitate the movement of
    such dentists to shortage areas in these States, nor does it encourage the retention of
    National Health Services Corps dentists who work in undersexed areas in these States
    and do not have a State license. Indeed, we have been informed of individual cases of
    these kinds.

    Yet we found no data, nor any studies, to indicate that licensure-by-credentials policies
    have much overall bearing on the access to dental semices in underserved areas. If
    dentists enjoyed complete freedom of movement, it is not at all clear that many more
    would work in undersexed areas than is now the case. Representatives from most of
    the States we covered in our focus groups--whether or not they grant Iicensure by
    credentials--reported significant difficulties in having dentists work in underserved
    areas, even in those underserved areas where they have the opportunity to make a
    substantial income.




                                                10



—
                            CONCLUSION


Since 1987 dentists have come to enjoy somewhat easier freedom of movement across
the United States as more States have established Iicensure-by-credentials policies.
Yet within the profession, the controversy has continued and perhaps even intensified.
The core of that controversy focuses on the restrictive practices of a few large sunbelt
States and perhaps three to five others to which significant numbers of dentists might
wish to move.

The ongoing operation of the NPDB and AADE clearinghouses, the slow but clear
movement toward a standardized clinical licensure examination acceptable to all
States,U and the continuing pressure exerted by many dentists could lead to wider
adoption of licensure by credentials in the years ahead. Such direction would
obviously contribute to the interstate mobility of dentists; its consequence for the
public at large is less clear.

Our inquiry has not provided a basis for supporting one side or the other in the
controversy concerning licensure by credentials. In examining the arguments for and
against it, however, we have identified two closely related issues that are of major
significance to dentists and the general public. These are:

  �	
       the minimal degree to which States currently assess the continued competency
       of practicing dentists, and

  �	
       the questionable performance of many State dental boards in carrying out their
       enforcement and discipline responsibilities.

If State governments and dental organizations, such as the American Association of
Dental Examiners, the American D>ntal Association, the American Association of
Dental Schools, and The Association of State and Territorial Dental Directors, focus
constructively on these issues, the support for licensure by credentials could broaden
considerably. More importantly, the public could receive increased protection for the
close to $40 billion a year 25I“t is spending on services provided by about 145,000
dentists across the United States.2G




                                           11

COMMENTS                     ON THE              DRAFT             REPORT


We received comments on the draft report from the American  Association of Dental
Examiners (AADE), the American Dental Association (ADA), the American
Association of Dental Schools (AADS), and The Association of State and Territorial
Dental Directors (ASTDD). In appendix C, we present each set of comments in full.

The AADE agreeswith our concluding observations about the minimal attention given
to continued  competency and the questionable performance of boards’ in carrying out
their enforcement responsibilities. It asked for any additional information we could
provide on continued competency to facilitate its own efforts in that area. We have
followed up with AADE to provide such information.

The ADA provided some updated information on licensure by credentials policies of
the States and indicated it would alter some of our observations on which States
engage in the practice. It agreed with our conclusion about continued competency,
but suggested we report the importance of continuing education as a mechanism to
address such competency. Finally, it reviewed its position and actions concerning
licensure by credentials.

On the basis of ADA’s information and follow up conversations with representatives
from Texas and Arkansas, we have added them to the group of States that is now fully
exercising the authority. But, as figure 1 indicates, it remains that this group is
concentrated in the middle and northeastern portions of the country and still does not
include 6 of the 7 States with the largest population increases during the 1980’s
(California, Florida, Georgia, Arizona, Virginia, and North Carolina).

In regard to continuing education (CE), we agree, as ADA suggests, that mandated
CE is important to consider among the array of approaches that are relevant to
continued competency. Yet, we also point out that, its overall value in this regard
remainsquestionable.   27 lna proposal   seeking fundingforcomputer-based
     patient

simulations, themajornational    dentalorganizations,including
  ADA note:“Itk

widelyagreedthata majorweaknessinmandatorycontinuing             education
 requirements

k thatfrequently    therek little
                                relationship betweenthecontinuing    education
  activity

and theprofessional    development  needsoftheindividual.”%
    The ASTDD, inits
commentson this      report,
                           reinforces thispointby noting:

                                                         “Nfany   practitioners take
courses they like, rather than courses they need. Assessment of what a dentist actually
learned from a course (e.g. knowledge), does not necessarily translate into changes in
practice or attitude.”

The AADS offered some technical suggestions, cited two recent articles in the Journal
of the Amen”can Dental Association (JADA) that were relevant to our discussion,     and
urged that we more fully address antitrust issues, We made corrections that addressed
their technical suggestions, referenced one of the articles at an appropriate point in



                                           12

ourtext,
       and didnotaddresstheantitrust
                                  implications

                                            -mainlybecausetheywould

call

   forjudgmentsby theFederalTradeCommission.


The ASTDD’S president urged that State public health dental programs be more
closely tied in with State licensing and credentialing efforts, emphasized its concern
about insufficient access to oral health services, expressed its support for periodic
assessment of the competency of dentists, and suggested that it is time to move toward
a national clinical licensure examination for dentists. He did not call for any changes
in our draft report.




                                           13

                       APPENDIX                             A


   !SI’ATE
         DENTALBOARDAUTHORITIES
                              ANDPRACI’I(3?S
                                           IFlGI?ANllNG
LICENSUREBYCREDEFITIAM
                     TO OUT@F-STATE
                                  CANDIDATE!l1987AND1993

        BOARD ~              AUTHORITY TO GRANT LICENSURE
                               BY CREDENTIALS
                                                                         BOARD HAS
                                                                             ~
               BOARD    EXERCISES*     ITS          BOARD   HAS NOT      AUTHORITY
                   AUTHORITY                        EXERCISED ITS         TO GRANT
                                                     AUTHORITY           LICENSURE
                                                                             BY
          BOARD                    BOARD                                CREDENTIALS
        AUTl+ORITY               AUTHORITY
        EXTENDS TO               LIMITED TO
        CANDIDATES              CANDIDATES
         FROM ALL               FROM STATES
           STATES               WITH SIMILAR
                                 PRACTICES

STATE   1987       1993
        1987         1993    1987        1993    1987   1993

AL
                                                                       x       x
AK                     x
                                                 x
Az
                                                                       x       x
AR                     x
                                                 x
CA
                                                                       x       x
co
                                                                       x       x
CT                     x
                                                 x
DE
                                                                       x       x


DC
                               x           x
FL
                                                                       x       x
GA
                                                               x       x
HI
                                                                       x       x
ID
                                                                       x       x

IL                     x
                                                 x
IN        x            x

IA        x
                                  x
Ks       x              x

KY
                                           x                            x
IA                      x
                                                 x
ME       x              x





                                         A-1

   ~ATE DENTALBOARDAUTHORITIES
                             ANDPRAmCES IN GRANTING
LICENSUREBYCREDENTIALS
                     ~ OUT~F~ATE Cu4NDB3A~ 1987AND1993

        BOARD ~         AUTHORITY TO GRANT LICENSURE
                          BY CREDENTIALS
                                                                        BOARD HAS
                                                                            ~
             BOARD EXERCISES”     ITS          BOARD   HAS NOT          AUTHORITY
                  AUTHORITY                    EXERCISED ITS             TO GRANT
                                                AUTHORITY               LICENSURE
                                                                            BY
           BOARD               BOARD                                   CREDENTIALS
        AUTHORITY           AUTHORITY
        EXTENDS TO           LIMITED TO
        CANDIDATES          CANDIDATES
         FROM ALL          FROM STATES
           STATES          WITH SIMILAR
                             PRACTICES

STATE   1987     1993      1987         1993    1987        1993   1    1987   !   1993


MD       x         x

MA       x         x

MI                 x        x

MN       x         x

                                                       ,
MS                                                                       x           x

MO       x         x

MT                                                                       x           x

NE       x         x

Nv                                                                       x           x

NH       x         x

NJ                                       x                               x

NM                                                                       x           x

NY       x         x

NC                                                                       X1X
ND                 x                             x

OH                 x                                   I                  xl
OK                           x            x

OR                                                                       x           x

PA                           x            x

RI                           x                                                       x

                                                       I

Sc                                                           x            x

SD                 x                                                      x

TN                           x                                                       x




                                    A-2

    ~ATE DENTALBOARDAUTHOIUTBZj ANDPRA(THCES
                                           IN GIIANTTNG
LI(3ZNSUREBYCREDENl%UJjTO OUT~F~ATE CANDIDA~: 1987AND1993

                 BOARD ~              AUTHORITY TO GRANT LICENSURE
                                        BY CREDENTIALS
             I                                                                                BOARD HAS
                                                                                                  ~
                       BOARD EXERCISES*           ITS                    BOARD HAS NOT        AUTHORITY
                            AUTHORITY                                     EXERCISED  ITS       TO GRANT
                                                                           AUTHORITY
             I                                                                                LICENSURE
                                                                                                  BY
                    BOARD                     BOARD                                          CREDENTIALS
                 AUTHORITY                  AUTHORITY
                 EXTENDS TO                 LIMITED TO
                 CANDIDATES                CANDIDATES
                  FROM ALL                 FROM STATES
                    STATES                 WITH SIMIM.R
                                       I    PFLKTICES

STATE            1987        1993          1987          1993             1987        1993         1987   I    1993

m                             x
UT

VT                                           x                                                            lx
VA                                                                               lx                  x    I
WA                                x                                                                  x    I


w                                                                                                    X1X
                                                                                                          1

WI                                x
WY                                                        x                      I           +--
TOTALS            11
                                                                  ....
                                                  ........... .......




Sourctx American Dental Association ADA News, Juiy 8, 1987 and October 5, 1992 Updated throu&
August 1993 by Ofice of Inspector General telephone contacts with ADA and Stare boards.

� We sou@   dam porn the individual Stoles on how ojkn they acmal(y ererctied their licensure-Qy-credemials
atuhor@ in Fiscal Year 1991. However, most of the States were unable to provide us with the akta.




                                                      A-3

                         APPENDIX                         B


CREDENTIAUNG        REQUREMHWS    IMPOSED BY STATES THAT GRANT
                    LICENSURE BY CRED ENTIALs, 1993

                                                            NUMBER OF
                       REQUIREMENT                            STATES
                                                            REOUIRING

        Active practice within former State immediately            24
        preceding application

        Board in former State must attest that the                 20
        subject was in legal and reputable practice (no
        unresolved complaint, review procedure, or
        disciplinary proceeding, and license has not
        been revoked)

        Must be personally interviewed                             14

        Affidavits or letters from practicing dentists             8
        regarding moral character

        Good moral character                                       6

        Physician’s statement of physical and mental               3
        health

        Intends to establish mactice                               2

     Source: American Dental Association, Repro of the Division of Education:
     Dental Licensure, April 1992.




                                            B-1

                           APPENDIX                 C


              DETAILED     COMMENTS      ON THE DRAFT       REPORT


In this appendix, we present the complete comments on the draft report received from
the American Association of Dental Examiners (AADE), the American Dental
Association (ADA), the American Association of Dental Schools (AADS), and The
Association of State and Territorial Dental Directors (ASTDD).




                                        c-1
                                    AMERICAN ASSOCIATION OF DENTAL EXAMINERS
                                     Chicago Ave., Suite 644, Chicago, IL 60611 (312) 440-7464
                                                                                May 13,    1993



                                         Mr. Bryan B. Mitchell

       B.    Wayne J. h                  Principal Deputy Inspector General

   2928HmniiIm~                          Off ice of Inspector General

     sjouxc~,  IA 51104
             (712) 2ss-7607
                                         Department of Health  & Human Services

                                         Washington, DC 20201


                                         Dear Mr. Mitchell:

            Dr. Jd   F. GJuvcr
            w-w
            Rmo. NvS9509                 Thank you for giving the American Association of

             (’702)S2S-2417              Dental Examiners an opportunity to comment on the

                                         draft report “The Licensure of Out-Of-State

  FIRsTwm+mmmr                           Dentists”.

      Dr.Iiliiml
             KBadam                      The report concludes that “Our inquiry has not

        3oEaaaktlsuca
      New Yak NYloo22                    provided a basis for supporting or opposing

                (~12) 7554125            licensure by credentials. It has, however,

                                         identified two closely related issues that are of

 SECOND   vm3-mEsmNr                     considerable significance to dentists and the

          Dr. Km     c
                    C-ICY
                                         general public. These are:

               440 BrtYdsL
       cohdliLMs    39429                       �	     the minimal degree to which States
           (@ii) 73&1761                               currently assess the continued
                                                       competency of practicing dentists, and
  lnmDvmwsmmw
       t&.Hany
             RDoIwuI                            �      the questionable performance of many
      2860 PiakunKAvc=Ic                               State dental boards in carrying out
            lhlhuh. MN 55811                           their enforcement and discipline

               (218) 7224823                           responsibilities.“

MMmnATE     Pm mmlumrr
                                          As regards the “questionable performance of manY
          l)r. wT.         RwiI           State dental boards” it 1S clear that the lack of
        475 MaMad AvaxIc                  sufficient funding is the principle reason for
  Ablxul? s@ga. FL 32701
                                          enforcement difficulties.
             (407) 831-1747


    FxEamvEDIREcNx                        In addition the report states “If State

                                          governments and dental organizations, such as the

                ML MdtyNder               American Association of Dental Examiners, the

      2111LChiCJg0 AVCaUIC
                                          American Dental Association, the American

            ChiagO, %?il%                 Association of Dental Schools, and the Association

                 (312) 440-7464           of State and Territorial Dental Directors, focus

                                          constructively on these issues, support for

                                          licensure by credentials could broaden

                                          considerably .“ This is likely to follow closely

             Dr. Kuhka      Kth’
            u E Mifflia StruI             on the heels of continuing competency programs.

                    Suiac 204
            ~            WI 53703         The AADE agrees that continued competency should
                 (60s) 2XW45EJ            be addressed. AADE established a Continuing
                                          Competency Committee in 1992, the goal of which is
to develop criteria and mechanisms for states to
use in assessing the continued  competency of their
licensed dentists.   The AADE is currently seeking
support for the Committee’s activities from the
Bureau of Health Professions of the Department of
Health and Human Services, the American Dental
Association, the Academy of General Dentistry, and
the American Association of Dental Schools.

The AADE would like to officially request that, if

possible, any information obtained during the

Office of Inspector General’s study on the subject

of continued competency be shared with the AADE

Continuing Competency Committee.  Also, the AADE

Continuing Competency Committee would appreciate

any information that the IG’s office has with

respect to other health organizations’ activities

in ~he area of continued competency.


                          Sincerely,



                          Molly Nadler

                          Executive Director



cc : Members, AADE Executive Council
     Members, AADE Continuing Competency   Committee
American
Denta(
Association

211 East Chicago Avenue
Chicago, IllInoIs 60611-2678
!312) 440-2500




 May      28,      1993

 Mr. Bryan B. Mitchell
 Principal    Deputy .Inspector       General
 U.S. Department        of Health    & Human Services
 Office    of Inspector      General
 Washington,     D.C.     20201


 RE :	       Draft       Inspection           Report,
             “The       Licensure        of    Out-of-State       Dentists”

 Dear       Mr.       Mitchell:

 Thank you for your recent               letter    inviting       the American         Dental
 Association’s         comments     on your draft         inspection      report,        “The
 Licensure       of Out-of-State        Dentists.”          We greatly appreciate
 this opportunity to provide comments and your offer to

 include them in your final report. We would like                            to begin        by
 stating     quite     simply    that   the report.       is excellent.          We also
 commend the thoroughness              of the report,          as well    as the
 accuracy      of.the     data   on the licensing           requirements       of each
 state,     which we are pleased             is based     on reports      from the
 American      Dental     Association:          The remainder        of this      letter
 will    provide      our specific       comments.

  Uudate on Data

  This year, the State of Arkansas enacted legislation in

  support of licensure by credentials. It is our understanding

  that the legislation will now go to the state dental board

  for implementation. As of this date you may wish to report

  that implementation is pending with the state board.

  Licensure              by    credentials         also   is   currently   under   consider­
  ation    the State of Texas. A bill is progressing
           in                                         through
  the Texas legislature that, if adopted, will require the

  de~tal boa- to implement  llcensure by credentials.  This
- bill is supported by the Texas Dental Association.  Licensure

  by credentials also is beingconsidered at the present time

  at the regulatory level by the dental board in Texas.


  The addition of two sunbelt states this year would alter your
  report’s analysis that the states with licensure by cre­

  dentials: (1) are concentrated heavily in the middle and

  northeastern portions of the country, and (2) do not rePre­

  sent the fastest growing states in the country. MOreOVer,
  the addition of Texas runs counter to the sometimes cited
        .
Mr. Mitchell
May 2a, 1993
Page 2

view that licensure by credential states do not include any

of the retirement areas in the sunbelt region.

Continued       Com~etencv
                        v



We agree with your assessment that it is important,for state
governments and dental organizations, such as the American
Dental *_s_~ciation,,the American Association of Dental

Scho.ols”and o~,~to     focus constrictively on the issue of

continued competency”of @racticing dentists.   At present, the

American Association of Dental Examiners has an ongoing task’

force to study this issue, with participation by the American

Dental, Association, the American Association of Dental

Schools and ~ther dental organizations.


We note       on this        issue     that    you may wish to mention                in the

report      the importance             of continuing         education       as one

mechanism        to address         clinical        competency.         We believe

continuing          education        is a very       important       aspect      of this

issue.        The American          Dental      Association,         through      exlSt~n9

policy,       urges      states     to develop        mechanisms        to foster

continuing          education.           In fact,     to date      29 states        plus    the

District        of Columbia         believe       it is sufficiently             important

that     they    have made continuing                education       mandatory.          There     is

a growing        trend       i.n states      to adopt mandatory             continuing

education         legislation.


American Dental Association Activities

Your report quite accurately states the American Dental

Association’s position on licensure by credentials. we

support licensure by credentials. However, we also firmly

support the notion that this is an issue to be addressed on a

state by state basis. Professional licensure has been a

traditional area of state regulation, and we support the

rights of the states to make their own decisions in this

area.


The Association believes that it has contributed proactivelY

to state acceptance of licensure by credentials through its

many activities in support of credentialing. These include
most significantly a national conference on licensure hosted
by the ADA in July          1992.     This conference,          which was attended
by representatives          of the educational          community,      state     regu­
latory     agencies,     and other     interested       groups     and individuals~
provided      a forum for the communities              of interest      to discuss
progress      toward   appropriate       opportunities        for licensure         by
credentials.         The conference        included     presentations         and
workshops       that  provided     the participants          with    a forum in
    Mr~ Mitchell
    May 28, 1993

    Page 3     ~


    which to develop their own strategies for implementation of

    licensure by credentials in their states. The conference

    also sparked a momentum for several new and important

    resolutions that were adopted by the ADA~S House of Delegates
    in October        1992.       These resolutions           provided     direction      on
    specialty       licensure        by credentials;          Supported      ADA efforts     to
    encourage       state     regulatory         agencies     to accept      a common core
    of requirements           and guidelines           for clinical       examinations;      and
    directed      the appropriate             agencies      of the ADA to urge all
    dental    licensing         jurisdictions          to utilize      the ADA guidelines
    for licensure         by credentials.              In short,     ADA’s policy        on
    licensure       by credentials            is not simply        a statement       of
    position.         It is a core policy              that    is actively — supported
    by the Association.

    Conclusion


    In conclusion, new data for the first five months
 of 1993
    supports the overall trend noted in your report:
 more and
    more states ~   adopting licensure by credentials
 legislation
    and regulations. While the trend may not be as rapid as

    credentialing proponents would like, change is coming in a

    well-reasoned manner.


    The American Dental Association supports licensure by cre­
    dentials but just as firmly supports the right of states   to
    make their own determination about whether more licensing
    laws and regulations should permit credentialing.   At the
    same time, we have taken a number of active steps, partic­
    ularly in the past two years, to assist states in moving
    toward licensing by credentials, and will continue our
    efforts in this regard.

    Thank you again for the opportunity                    to comment on your

    excellent report.



    Sincerely,


-   ‘f&’’lj’lj~DD~
          .          ..
    Executive Director
                           �




    JSZ/MKL

American .koclation
 ot Dental Schools
                      June 17, 1993
         16Z5
   ,Massachuser[s
    Avenue, NW
  Washington     DC
     20036 -22[2
                      Mr.BxyanB.Mitchell
                      Principal
                             ~puty Inspector

                                           General

    202.6679433
                      Office
                           oftheInspector

                                        Genexal

                               ofHealth

                      Department       andHuman

                       Services

                                D.C.20201

                      Washington,


                      Dear Mr. Mitchell:

                      on behalf  oftheAmerican
   Association of Dental SChOOls(AADS), we appreciate the
                      Opportunity to review the ~    ~pector Gene@’s Repo~ ‘“me Lice=        of Out-of-Stilte
                      Dentists.”

                      FirsL we compliment you, Dr. Ma.ricyessi~ M~a        Kv@, ~d other ~      fim the Boston
                      R@OIl~  office on the development of this K!po~   ~dq    the Association WN pleased to have
                      been contacted by these individuals during the muse of the study.

                      We offer the following comments and suggestions:

                      1.     Page 1, first paragraph of the i%cic~munclstio~      tie 7: We suggest this line be
                             edited as follows ..... responsibility of fiding cooperative patie~- with the necessary
                             oral problems.”

                      2.     page6,line
                                      4 ofthefirst
                                                full

                                                    paragmpkThishe sho~dbeedi~ toreadasfollows:

                             ,,

                              ,...   theexaminati
                                taking         on andfinding
                                                          patien~who will
                                                                        bepart

                                                                             oftheexaminatiOrL”


                      The rationale for nxomrnendatio~ num~m 1 ~d 2 ~ & found in the Appendix C
                      endnotes, number 6 (page c-1) which s~tes the n- to fid p~ents for the examinatiorl.

                      3.	    Page 2,Table1,Significant Actions: we su~est M tie ~on u&em by the AADS
                             House of Delegates in 1991 to update @ ~is~     the Association’s policy on dental
                             licensure be cited in this Table. A COpyof the MS     policy s~tement is enclosed.

                      The inchsion of the AADS policy will give -r     Unde-ng     ~d   jusl.ifi~rion to the
                      report’s Iwcmlmendation found in the wnc~usion (page 11) ~ e~ewhere th~ W fOrthe
                      American Association of Dental Schoois, ~ong other org~z~om,    to WOk for the aui.nued
                      improvement in the dental licenswe process.

                      4.	    FuU)J Ct)gni=toftherepofi’s
                                                     h~vy emp~is on i~es of ~~ss, we suggest m the
                             report’s dkcussion
                                             ontheissue      andtheprotection of the public could be
                                                      ofquality
                             strengthened. Inpticular,  there aretworecent articles,       intherepmtwhich

                                                                                    notcited
                             suggestthat thecunentsystem    haslitie

                                                                    rel~on10~suring   ~~ty  (i.e., board pilssing
                             !“dRs~ ftirly axbitrary and everyone eventu~y p~s=). me ~cles are “Clinical
                             BoardExaminations:   VatiationFound in Pass Ram” by Damiano, Shugars,     ~d FXWXL

Mr. Bryan B. Mitchell

June 17, 1993

Page 2




       in the June1992 issue of the Journai of the Arnetic~ Dental Association (JADA).
       The finding was a significant   vaxiation in paSSrates within and among state and
       regional dental boiud clinical exsms during 19’79-8& This suggests factors other than
       the abilities of candidates influence exam outwm~. %=            inconsistencies should W
       ofconsiderable    mncem tothepublic      andtheprof~sion   we astheyundermine           the

       perceived   effectivenessoftheboards     toprotectthepublic.”
  The second axticle is in
       b Iv@ 1993 JADA by the Same SUthOrS, “Asmsing            Q~ty      in Dentistry: Dental€
       Boards, Peer Review Vary on Disciplinary Actions.” “’1’’his
   study    raises questions
       about theabfity    ofthepeerreview     system and ~   s-   d~       bards    to function asa
       consistent  national system  ofquality
 assurance.”

5.	    We mmnmend that the qort *W    mo~ fUUy the po~tial    anti-trust   implications
       fora XIXJUk!m~t
                     thatselvestorestri~
                                      thecom~titio~  butd~ l,ide         m ensure
 the
       quality            who w eventually
             ofpractitioners             licensedortheir   continued
    compe­

       (pages

             9-10).


The Association appreciates this OppOrCU@  to provide these ~mments.  please call me or
Mr. ScotI Litch, AADS Legislative Counsel, should you have any questions.




/




Proton A. 1411eton,Jr., D.D.S., Ph.D.
Executive Director

Enclosure

cc:    AADS Executive Committee
                                  American hSOCidiOIi of Dental Schools
                             Policy Statement on Licensureand Certification


     1.	   The American Association of Dental Schools should cooperate with the ~erican           Dental
           Associatio~
                   theAmerican
                            Dental
                                 Hygienists’
                                         Association and the American Association of
           Dental Bxaminers to develop uniform standmds for Iicensure and credent.kding that would
           permit freedom in geographic mobility for dendsts and dental hygienists.

     2.	   The Association should explore the medical-legal and infection-control liabilities and the
           ethical issues associated with the delivery of care in clinical entry-levei board examinations.

     3.	   The Association, in cooperation with appropriate organizations and agencies, should ident@
           the minimum competencies needed by dental personnel to participate effectively in the delivery
           of health care.

     4.	   The Association, both through coopemtive venturss and on its own initiatives, should support
           the development of valid and reliable methods that can be used nationally to measure
           minimum competencies of dental personnel.

     5.	   The tksociati~  in cooperation with appropriate orgardzstions and agencies, should exphn’e

           the development of alternative testing meth~   and SUppOrtthe development of appropriate
                    projects
           demonstration       programs.

                         andpilot

     6.	   As a long-term goal, the Association recommends eii~tion    of state md regional entry-level
.
         clinical licensumexaminations  fordentistsanddental hygienists who are graduates of
           programs accredited by the Commimion on Dentai Accreditation, and have succ.eddly
           completed the National Board Dental Examinations or the Natio~ Board Dental Hygiene
           Examinations.

     7.	   The Association supports the continual evaluation of tie ~m~tenci=         of dentists and dental
           hygienists throughout their professional lifetimes.

     8.	   The !ADS supports the appointment of qualified dental hygienists to all state boards of
           dentistry to participate in the examina tion of candidates for dental hygiene licensure and to
           serve as full voting and policy-making members in all matters relating to dental hygiene.

     9.	   Successful completion of a program approved by the Commissim on Den~ Accreditation or
           the Canadian Dental Association through its Councii on Educati~         should be a prerequkitc
           for eligibility for the text.ifkation exarnina tion of the Dental Assisting National Board.

     10.   Dental laboratory technicians should be eligible for certification immediately following
           successfid completion of a program approved by the Cornmission on Dental Accreditation and
           the passing of the National Board of Certification Examination.
                                                                           l)vo Peachtree Street	
                                                                           Sixth ??bor	
                                                                           Atlanta, GA 30303	
PRESIDE\’T
E Joseph Alderman. DDS, MPH
                                               Phone: (404) 657-2575	
Office of Dental Heaich
                                                   F~:     (404) 257-6631	
878 Peachtree St., NE R-215

Atlanta GA 30309
                                                          June 7, 1993	
Phone 404/894.6684

Fax: 404/894-7799


PRESIDENT-ELECT
Richard   j. Hastreiter,   DDS,   MPH   Bryan B. Mitchell	
Minnesota Dept. of Heaith
              Principal Dep~ Inspector Geneml	
717 Delaware SL, SE

Minneapolis.  ,MN 55440
                Office of Inspector Genend	
Phone 612/ 623-5441
                    Washington, D.C. 21201	
Fax 612.’623.5043

\7CE-PRESIDE!ST
Mark D. Siegai. DDS, MPH

                                        Dear Mr. MitchelZ:	
Division of Dentai Health

246 N. High Street

P.O. Box 118
                                    Zhank you for the opportunity to nspond to the Office of Inspector
Columbus, Ohio 43266.0188
              Genend drq/1 report, The Licensum of Out~f-State Dentists. * l%e
Phone 614’466-4i80

Fax: 614/644.9650
                      Association of State and Territoti Dental Directots (ASZDD) is an ~~e
SECRHARY.TRE.4SURER
                    of the Association of State and TehoM           HeaUh Officials (ASIZIO).
.M. Dean Perkins, DDS
                  Membership is composed of the Chief Den@ Officer of the Depa~eti            of
Bureau of Dentai Health

P.(J Box 570
                           HeaUh, or equivalent public health agency of tie states, teniton”es, or
Jefferson Ciw, Missouri 65101
          possessions of the United States. ASTDD considers pollcies or
Phcme 314/751.6247

Fax 3i.$/i51-6010	                      recommend~”ons of private orpublic agencies pe~”ning to omi and dental
PAST PRESIDENT
                         health, and adopts policies for gutice        of its membem. 17zis mponse
Robert Isman, DDS, MPH
                 represents my opinion and expen”ence as AS~D president and diplomate
Dentai Heaith Section

CA Dept. ot Heaith Serwicea
            of dental public health, one of the ea”ghtAmerican Dental Association
P.O. Box 942732
                        dental speciahies. Ilis nport is not necessmiiy the officihl potion         of
Sacramento,    C.+ 94234.7320

Phone 916,324.2230
                     ASTDD, but the I%recutive Committee of ASlllD has ~viewed the mpoti.
Fax: 916.’ 324.7764
                             State dental ptvgmms should aid in the ticensing and credenmg
DIRECTORS
                              of dentists. For example, the State De& Director in the Rhode Island
f3ev Enrw,sciti. RDI-L MPH
             DeF=~ent of He~fih ~en,es ~ the ~ai~enon            of the P&ode Island Boani
Eirwr Green. DDS, MPH

lack Dillenberg. DDS, MPH
              of Eraminem in Dentistry. TM/s & ws for cootiitiion           of the two state
\,FT,~SLETTFR       EDITOR

                                        entities, and increased public accountability. It bn”ng access to care and
 L Lonan Davis, D\{D, MPH

I?cnd Iicaith Division
                 public heai’th to the foreftvnt of discussions that might be considered se~­
Bureau oi Famdv Hcdth Services
         servi”ngto pn”vate pmcticing dentists or other Weciai interwt grvups. Most
Sate Otfict i3uiidmg

:34 i([}nroe Street
                    Board appointments are made by the Governor fmm dentists recommend~ -
Mt.ntgi+nicr:,  .+L 5613P               by state dental associations. However, state dental prvgmms are hating­
Phone: 205 ‘Z.+2.5057
F4x: 2P5,’2K-3097                       mjor problems. A December 1992 ASZDD Survey indicated: a. 10 (20qo)
                                        states have no state dental pmgmm; b. 3 (6qo) stutes have dental p~g~$
                                        but no director; c. 32 (64%) states have a fuU tie director; and d. 5 (10%)
                                        states have apart time director. All state oti hedh pmgmms must be able
                                        to perform the core functions of assessment, poiicy development, and
                                        assumnce.
ASTDD Letter: B~an B. Mitchell: Page 2




         ASTDD continues to be concerned about the lack of access to oml heahh serw”ces, and
would suppott methods to increase access to care while ensun”ng quality of care. Access to care
is a complex issue. Makiiistribu~”onof dental heailh care wonkers is a problem in many stiztes
including Georgiu. A public health license by credentials has helped bn”ngpublic hetdlh dentists
to Geo@a. l%ik has helped in undememed areas and institutions. IZe Gee@                       Bo& of
Dentistry now requires dentists with a public health license to take the next available Boani, and
this has inhibited recnulment of public heakh dentists. Fortunately Georgia has started to accept
the Southern Regional Boanis which should help with the decreased numbem of licensed dentists
in our State.
         Specialky Boani licensure by cndentials should help, (e.g. Boani qualified or cetified
specialists in good standing with their Specialty Boanis). However the present method in many
states of requin”ng the clinical board and then the Specialty Boani does not help recmit competent
dentists for the public sector, or vatius specialties. Speciidty licensure must not be used to restrict
competent piimary care dentists (i.e. geneml dentists) fmm providing specially services. Ailhough
the majority of dentists and the American Dental Association SUppOtt licensum by cmdentibls
many of the ‘decision makers n both on State Boanis of Dentistry and State Dentlzl Associations
remtu”nopposed.
         Even though you state ‘most applicants pass the examinations N@age 6), individuals who
attempt the examinatM‘ ns are a select group, and do not include many expen”enced dentists who
do not want to go through the truuma of another Boani.
         Ilere may be some variations in the quality of gmduates, but in my opinion a national
clinical board should be explored. If the National Pmctitioner Data Bank does not include
necessary information about disciplined dentists, the individual state boards could be contacted
prior to licensure by credentials. l%e example of “one” dental school dean who fa”led the clinical
examination three times @age 8) does not significantly strengthen opposition to licensurz by
credentials. Seveml examples of the most              ‘clinically” competent gmduates fiu”ling the
examinations can also be found.
         A mqior injlux Rf out-of-state applicants forthepopuiution grvwth states shouki eventually
be soh’eti ~ supply and demand, not by examinations restn-ctions.
         If dentistry is concerned about quality of dentists, some periodic assessment of competency
should be established. It might be helpful to compare how the phym”ctins handle licensum by
credentials and quahly of care issues, especially in isohzted prnctices (e.g. nmzl). It is interest?’ng
that once licensed, one can pmctice ‘forever. n Monitoring ail physl”cal and mental disabilitie~ ­
 (e.g. impaired vision) cannot be expected to be handled by ovenvorked Eramining Boards as they -
are currently configured. Licensure by credentis,        in conjunction with a n@”onal clinical exam,
would allow state boanls to focus on more important issues like inve~”g~”ng compkzints against
and apprvptiely       discipline licensees, or contz”nuedcredentialing past initial licensure.
          Continuing education does not ensure quality care. Many pmctitioners take courses they
like, mther than courses they need. Assessment of what a dentist actu~ly learned fmm a course
 (e.g. knowledge), does not necessady tmnshte into changes in pmctice or attitude.
ASTDD Letter: Bryan B. Mitchell: Page 3



        Although the present growth and acceptance of regional boanis is to be commended, a twi
licensure by credentials could ensure quality of cam, and help provide access to -             in
undemewed areas. Re@”onal Boanis could begz”nto form a national clinical euun by u~g
exiti”ng regional boards. However, licensure by cnde&       orfinancing thrvugh public orprivate
insumnce does not guamntee access to onzl hedh cam. other barn”em to access include
economic, geogmphic (nmzl, tmnsients, migmnts), cultuml,            and educational, as weg as
individuals who are institutionalized, homebound, or have handicapping conditions.
        I hope this information is helpful in your delibemtions concerning licensum of dentists.
Xhe licensure and shoriage of dental hygienists is another issue that shouhi be addressed.
ASZDD and ASTHO are working to establish a National Oral HeaUh Agendh. ASZDD is an active
member of the Coalition for Oml Health and strongly SUppOtiSthe inclusion of oml health in
heakih care reform. We believe that ASZDD cooperation and collizbomtion with fede~         state,
and local agencies, the pn”vate sectom of dentistry and dental hygl”ene, and oml hedh advocates
is the key to ensun”ng that eve~one can enjoy good oral health and an enhanced quality of we.
If I or this organization can be of any futther assistance, please let me know.




                                                  Sincerely,



                                                  E. Joseph Alderman, DDS, MPH
                                                  President, Association of State
                                                  & Ternloti    Dental Directonr

EJA/ja

cc:	     ASTDD Erecutive Committee
         AS1’HO Executive Director
                           APPENDIX                   D	

                                   ENDNOTES



1.	   American Dental Association, Report of the Divkion of Education:    Dental
      Licensure, April 1992.

2.	   The American Association   of Dental Schools (AADS) has also addressed the
      licensure
             by credentials
                         issue.
                              Of particular
                                         noteisa 10-part

                                                       1991policy
              (presented
      statement        inappendixC ofthis
                                        report).Itcalls

                                                      forAADS to

              inefforts
      cooperate       “todevelop
                               uniformstandards           and

                                              forlicensure

      credentialingwouldpermit
                 that          freedomingeographicmobility        and

                                                         fordentists

      dental

           hygienists.”


3.	   Charles R. E. Koch, cd., H&to~ of Dental Su~e~, Vol. 1, (Chicago: The
      National Art Publishing Co., 1909), p. 691.

4.	   According to the American Dental Association, during the years between 1987
      and 1993, 16 States authorized their dental boards to grant licensure by
      credentials: ~    AR, CT, GA IL KY, ~        NJ, OH, SC, SD, TX, Vi WA
      WI, and WY. One State board which did not exercise its authority in 1987 did
      SOby 1993: ND.

      Three States, the ADA reports, moved in the opposite direction by removing
      the authority to grant licensure by credentials: RI, TN, and VT. And three of
      the State boards with newly acquired authority have yet to exercise it: GA SC,
      and VA.

      on balance, the number of State boards that grant licensure by credentials
      increased by eleven between 1987 and 1993. See appendix A.

5.	   See American Dental Association, Report of the Division of Education: Dental
      Licensure, April 1992, pp. 436-41.

6.	   Indeed, in a number of States that do not grant licensure by credentials, most
      of their licensees are graduates of out-of-State dental schools.

7.	   An American Dental Association report describes the process as follows:
      “Location of patients for examination in another state or distant city is one of
      the most difficult parts of the examination process. The patients have to have
      the required oral problems, and they have to be willing to undergo a long and
      demanding series of procedures. They have to be cooperative, patient and



                                         D-1

        neutral.
              Theyhavetobe prepared
                                  toreceive
                                          treatment

                                                  thatmay notbe atan

        acceptable
                level.”                        Repoti of the Division of
                     SeeAmericanDentalAssociation,

        Education: Dental Licensure, April 1992, p. 429.

8.	     A recent article reporting “significant variation within and among state and
        regional dental board clinical examinations” seems to support the point, as the
        authors suggest, “that factors other than the ability of the candidates influence
        exam outcomes.” See Peter S. Damiano, Daniel Shugars, and James Freed,
        “Clinical Board Examinations: Variations Found in Pass Rates,” Journal of the
        American Dental Association 128 (June1992):     72.


9.      See SusanE.Lovelace,    “States        Journal of the Cahfomia Dental
                                       Divided,”
        Association 16 (February 2, 1992): 21.

10.	    The States
                 wereCalifornia,
                             Florida,
                                   NorthCarolina,
                                               Texas,
                                                    andWashington.

                                  “Report
        SeeAmericanDentalAssociation,              CommitteetoStudy

                                        oftheSpecial
        FreedomofMovementandLicensure     ADA Annual Repotts, 1989.
                                     Issues,”


11.	    Such doubts were expressed by representatives of State dental boards that grant
        licensure by credentials as well as those from States that do not. In fact, many
        in the former group of representatives were quite sympathetic to the reasons
        advanced by the latter for not granting licensure by credentials.

12.	    In our survey of the State dental boards we asked for information on the
        number of licensure applications and the number of licenses granted in
        calendar year 1991 or the fiscal year ending in 1992. The great majority of the
        boards provided this information. However, few provided information in
        response to our questions concerning whether or not those applying for a
        license and those receiving one held a dental license in another State.

        For example,among thesevenStatesleading thenationinpopulationgrowth
        inthe1980’s,onlytheNorthCarolina boardansweredthesequestions. It
                that34 percent
        indicated            ofits144licensure applicants
                                                        in1991already helda
              inanotherStateand that17 percenthad done so formore than5 years.
        license
        Among the121individualsgranteda dentallicensein1991,35 percentalready
        helda license                percentformore than5 years.
                    inanotherState--l6

 13.	   Here again, many among the dental board members we spoke with who came
        from States granting licensure by credentials were sympathetic to this point of
        view.

 14.	   See Preston A. Littleton, Jr., “Educating Dentists for the Future,” in Human
        Resources for Health: Defining the Future, C. McCollister Evarts, Peter P.
        Bosomworth, and Marion Osterweis, eds., (Washington, D. C.: Association of
        Academic Health Centers, 1992), p. 142.




                                            D-2

15.	    American Dental Association, The1991Survey        of Dental tiactice: General
        Charactetitics of Dentists, April 1992, p. 2.

16.     See Littleton, p. 142.

17.	    The American Dental Association, American Association of Dental Examiners,
        American Association of Dental Schools, and other major dental organizations
        provide support for this contention. In making the case for the funding of a
        proposal to develop interactive computer-based patient simulations, they point
        out the following:

               “Dental practices generally are not    reviewed by external organizations,
               nor are they required to participate    in systematic quality assurance
               activities. Assessments of provider    competency are limited to a one-time
               state or regional examination prior    to being granted a license to practice
               general dentistry.”

        See Dental Interactive Simulations Corporation, Conzputer-llased Simulations in
        Dent&try, a grant application developed and submitted by the Dental Interactive
        Simulations Corporation, undated, p. 14.

18.	    In recognition of this situation, the W. K Kellogg Foundation in 1982 funded
        Alvin Morris and other researchers at the University of Pennsylvania “to
        develop new methods and technologies that can be used by individual dentists
        and the dental profession to assess the effectiveness and efficiency of the full
        scope of dental practice.” This ambitious effort resulted in the development of
        an assessment instrument which a trained team of evaluators used to conduct
        l-day on-site assessments of a national sample of 300 dentists who volunteered
        to participate. The project generated many articles, but to this point little
        sustained follow-up. See Alvin L. Morris, J. Marvin Bentley, Anthony A. Vito,
        and Marguerite R. Bombs, “Assessment of Private Dental Practice: Report of
        Study,” Journal of the American Dental Association 117 (July 1988): 153-162.

 19.	   American Dental Association, “State Dental Board Continuing Education
        Requirements for Dentists,” August 1992.

20.	    We sought data from the regional testing agencies and from the States that
         conduct their own clinical examinations to determine the proportion of
         applicants passing the examination--distinguishing out-of-State applicants who
         had been practicing for more than five years from other applicants. However,
         the data we obtained were extremely limited and insufficient to offer any
         generalizations on the proportions passing the examinations. Such data could
         add some valuable information to discussions of the pros and cons of licensure
         by credentials.

 21.	    American Dental Association, “State Dental Board Continuing Education
         Requirements for Dentists,” August 1992.


                                            D-3

22.	   H. Barry Waldman, “Reciprocity: Why Doesn’t Someone Try this Idea,”
       Compendium of Continuing Education in Dent&try XII (November 1991): 86.

23.	   See U.S.Department of Health and Human Services, Public Health Service,
       Sixth Repoti to the ??esident and Congress on the Status of Health Personnel in
       the United States, March 1988; U.S. Department of Health and Human
       Setices, Public Health Service, Health 1+-ofessionalShortage Areas, July 7, 1992;
       and American Association of Dental Examiners, Composite, 1991 edition.

24.	   Particularlynotableinthis  regard isthepublication  bytheAmericanDental
       Association andtheAmericanAssociation      ofDentalExaminers     inMay 1992of
       theGutielines for Valid and Reliable Dental Licensure Clinical Examination.r.

25.	   Sally T. Sonnefeld, Daniel R. Waldo, Jeffrey A. Lemieux, and Daniel R.
       McKusik, “Projections of National Health Expenditures Through the Year
       2000,” Health Care Financing Review 13 (Fall 1991): 22.

26.	   U.S. Department of Commerce, Bureau of the Census, Statistical Abstract of the
       United States, 1992, Table 160, p. 109. Based on data supplied by American
       Dental Association, Bureau of Economic and Behavioral Research. Further, it
       is relevant to note that many who are in need of dental care are not receiving
       it, with the result that neglected oral diseases are widespread. See Myron
       Allukian, “The President’s Column: The Neglected American Epidemic,” The
       Nation’s Health, (May-June 1990).

27.	   In a recent article addressing quality assurance in dentistry, Damiano et al.
       note, ‘The effectiveness of continuing education as it currently exists has never
       been adequately demonstrated.” See Peter C. Damiano,Daniel         A. Shugars,
       and James R. Freed, “Assessing Quality in Dentistry: Dental Boards, Peer
       Review Vary on Disciplinary Actions,” Journal of the American Dental
       Association 124 (May 1993): 130.

28.	   Dental Interactive Simulations Corporation, Computer-Based Patient
       Simulations in Dentist)y, a grant application submitted by the Dental
       Interactive Simulations Corporation, undated, p. 10.




                                          D-4

